                     Offices of the Inspectors General
 U.S. Departments of Commerce, Defense, Energy, State, and the Treasury
Report No. D-2002-074                                               March 29, 2002

             Interagency Review of Federal Automated Export
                            Licensing Systems
                                Executive Summary
Introduction. Public Law 106-65, National Defense Authorization Act for FY 2000,
section 1402, requires the President to submit an annual report to Congress, by
March 30 of each year through 2007, on the transfer of militarily sensitive technology
to countries and entities of concern. The National Defense Authorization Act further
requires that the Inspectors General of the Departments of Commerce (Commerce),
Defense (Defense), Energy (Energy), and State (State), in consultation with the
Director of Central Intelligence and the Director of the Federal Bureau of Investigation,
conduct an annual review of policies and procedures of the U.S. Government with
respect to their adequacy to prevent export of sensitive technologies and technical
information to countries and entities of concern. An amendment to section 1402(b), in
section 1204 of the National Defense Authorization Act for FY 2001, further requires
that the Inspectors General include in the annual report the status or disposition of
recommendations set forth in previous annual reports under section 1402.

To comply with the first-year requirement of the National Defense Authorization Act,
the Offices of the Inspectors General (OIGs) conducted an interagency review of
Federal agency compliance with the deemed export licensing requirements contained in
the Export Administration Regulations and the International Traffic in Arms
Regulations. To comply with the second-year requirement of the Act, the OIGs
conducted an interagency review to assess policies and procedures for developing,
maintaining, and revising the Commerce Control List and the U.S. Munitions List.
This year, to comply with the third-year requirement of the Act, the OIGs conducted an
interagency review of Federal automation programs that support the export licensing
and review process. Because the Department of the Treasury, Customs Service,
reviews completed export licenses and exchanges law enforcement information by way
of a nationwide system with Commerce and other Federal agencies, the Department of
the Treasury (the Treasury) OIG also participated in the interagency review.

Objectives. Our overall objective was to determine whether the current automated
systems that Commerce, Defense, Energy, State, and the Treasury use to support the
export license approval and review process were effective and whether system
modernization initiatives were in accordance with Federal policies and regulations.
Specifically, we reviewed processes and planned improvement initiatives for the
dual-use and munitions export licensing environments. In addition, we assessed the
interagency efforts of the U.S. Export Systems Interagency Program Management
Office, a Defense effort designed to help modernize the overall export licensing
process.

Review Results.

        Dual-Use Export Licensing Environment. The dual-use export licensing
process involves multiple automated systems owned and operated by the different
Federal licensing and review agencies. Many of those systems are no longer effective
for the present era of export license processing. Overall limitations of those systems
include differing security standards among agencies, cumbersome manual and
paper-based processes, and no comprehensive database of export information available
to assist in assessing the cumulative effect of multiple exports. Dual-use export
licensing agencies have made progress in modernizing their automated systems.
However, those agencies can do more to coordinate their systems modernization efforts
and may not have adequately considered other system alternatives beyond enhancing
existing licensing system interfaces.

        Munitions Export Licensing Environment. The munitions export licensing
process involves multiple automated systems and is inefficient and unnecessarily
burdensome, partially because of the uncoordinated manner in which State and other
Federal agencies introduced licensing systems. State has taken steps to upgrade some
aspects of its automated internal processes. However, State’s approach does not
include adequate risk management, identification of requirements, or coordination with
industry and other Federal agencies involved in the licensing process. By working
together with the other Federal agencies and exporters and building upon agency
munitions initiatives that are underway, State could lead the way to provide secure,
integrated systems that could streamline the Federal munitions export licensing process.

        U.S. Export Systems Interagency Program Management Office. To address
interoperability concerns across agency lines, Defense created the U.S. Export Systems
Interagency Program Management Office. The U.S. Export Systems Interagency
Program Management Office has achieved much in partnership with Commerce by
planning and implementing some improvements in the export licensing process for
dual-use commodities. However, the U.S. Export Systems Interagency Program
Management Office is not meeting its original goal to modernize the entire Federal
export licensing process by providing participating agencies with electronic access to
pertinent export data. Specifically, the program lacks full participation by State and
other involved entities, key project milestones have slipped, and funding requirements
have not been sufficiently documented. As a result, the U.S. Export Systems
Interagency Program Management Office has been unable to fully address
inefficiencies, identify requirements, and streamline the Federal munitions export
licensing process.

Summary of Recommendations. We recommend that the Secretary of Commerce, in
conjunction with the Secretaries of Defense, Energy, State, and the Treasury, take the
necessary actions to establish accountability for developing, integrating, and
modernizing Federal automated dual-use export licensing systems without unnecessary
duplication. At a minimum, those actions should include the formation of a senior-level
organizational structure, such as an interagency working group or steering committee,
to oversee the systems development effort. We also recommend that the Secretary of
State develop a memorandum of understanding with the Secretaries of Defense,
Energy, and the Treasury that will help ensure that Federal automated munitions export
licensing systems are developed, integrated, and modernized without unnecessary
duplication. The memorandum of understanding should identify an organizational
structure, such as an interagency working group or steering committee, to oversee the
systems development effort. Finally, we recommend that the Secretary of Defense
continue to work with Commerce, Energy, and State to improve and better integrate
Defense’s role in reviewing and processing dual-use and munitions export licenses. In
addition, we recommend that the Secretary of Defense redirect the primary focus of the
U.S. Export Systems Interagency Program Management Office to automating,
integrating, and modernizing Defense’s processes for disseminating and reviewing
export license applications and associated technical documentation within Defense.


                                           ii
Commerce Comments. The Under Secretary for Export Administration responded for
the Secretary of Commerce. The Under Secretary for Export Administration concurred
that the Federal automated dual-use export licensing systems should be developed and
modernized without unnecessary duplication. However, the Under Secretary did not
agree that the issue is best resolved by developing a memorandum of understanding at
the Secretary level, as recommended in the draft report. Instead, the Under Secretary
thought that the best course of action would be to assign responsibility for this task to
the appropriate operating units within Commerce, Defense, Energy, State, and the
Treasury. The Under Secretary also proposed that an interagency mechanism, such as
the existing U.S. Export Systems Interagency Program Management Office Steering
Committee or a similar working group, be used to satisfy the OIG recommendation of
developing, integrating, and modernizing dual-use export licensing systems without
duplication.

State Comments. The Assistant Secretary of State, Bureau for Political-Military
Affairs responded for the Secretary of State. The Assistant Secretary for
Political-Military Affairs concurred with the recommendation that State take the lead in
developing a memorandum of understanding with several agencies to address
information technology systems and coordination requirements. The Assistant
Secretary stated that he would assume executive-level oversight for the Bureau for
Political-Military Affairs and, as need be, the Department, in exploring development of
an agreement regarding the role and coordination of respective agency automation
efforts in the munitions export licensing process.

Defense Comments. The Acting Deputy Under Secretary of Defense (Policy
Integration) responded for the Secretary of Defense. The Acting Deputy Under
Secretary nonconcurred with both draft recommendations to develop memorandums of
understanding, stating that memorandums of understanding will do little to advance the
progress of information sharing. The Acting Deputy Under Secretary suggested a
revised recommendation to form an Interagency Operations Committee for controlling
future iterations of automated export information exchange among participating
agencies. The Acting Deputy Under Secretary did not respond to the recommendation
to continue to work with Commerce and State to improve and better integrate Defense’s
role, and nonconcurred with the recommendation to redirect the focus of the
U.S. Export Systems Interagency Program Management Office. The Acting Deputy
Under Secretary stated that the recommendation is contrary to the precepts of both the
Clinger-Cohen Act and applicable Defense regulations and that implementation of the
recommendation will result in the program office losing the opportunity to leverage its
accomplishments into future interagency cooperation.

Energy Comments. The Associate Administrator for Management and
Administration, National Nuclear Security Administration, Department of Energy
responded for the Secretary of Energy. The Associate Administrator concurred with
the draft report and the recommendations.

The Treasury Comments. The Secretary of the Treasury did not comment on the
draft report.

Interagency OIG Response. The individual licensing agencies have not adequately
risen above their mission-related issues, interests, and responsibilities to be able to
develop integrated interagency licensing systems that are both efficient and effective.
Therefore, the suggestion of both Defense and Commerce for an Interagency
Operations Committee or similar working group has merit. We revised our
recommendations to reflect the option of creating such an interagency organization.
                                            iii
However, we also recognize the need for the agencies involved in the licensing process
to have the flexibility for deciding among themselves the precise roles and preferred
approach of promoting information sharing and overseeing interagency coordination.

The intention of the recommendation to refocus U.S. Export Systems Interagency
Program Management Office efforts is not to end the cooperation among Commerce,
Defense, and State, but rather to ensure Defense resources are focused on resolving
significant export license application review process inefficiencies within Defense, such
as disseminating license applications and associated technical documentation to widely
dispersed geographic locations, that will provide benefits for Defense organizations and
make Defense participation in the interagency licensing review process more efficient
and effective. We agree that the accomplishments already achieved by the cooperation
between the U.S. Export Systems Interagency Program Management Office and
Commerce should be leveraged into future cooperation among all of the Federal
licensing and review agencies.

We reiterate our recommendation that the Secretary of Commerce, in conjunction with
the Secretaries of Defense, Energy, State, and the Treasury, take the necessary actions
to establish accountability for developing, integrating, and modernizing Federal
automated dual-use export licensing systems without unnecessary duplication. At a
minimum, these actions should include the formation of a senior-level organizational
structure, such as an interagency working group or steering committee, to oversee the
systems development effort.

We request that the Secretaries of State, Defense, and Commerce provide comments on
the revised recommendations on the dual-use and munitions export licensing
environments and provide additional comments with specific plans and dates for
implementing all of the recommendations.

Followup to Prior Interagency Reviews. Appendix B contains the current status of
recommendations made by each agency during prior export control reviews, as required
by the amendment to section 1402 of the National Defense Authorization Act for
FY 2001.




                                           iv
Table of Contents

Executive Summary                                                     i

Background
     Introduction                                                     1
     Objectives                                                       2

Review Results
     A. Dual-Use Export Licensing Environment                         3
     B. Munitions Export Licensing Environment                       14
     C. U.S. Export Systems Interagency Program Management Office    25

Appendixes
     A. Scope and Methodology
          Interagency Scope and Methodology                          32
          Agency-Specific Methodology                                33
     B. Followup to Prior Interagency Review                         36
     C. Department of Commerce Report                               C-1
     D. Department of Defense Report                                D-1
     E. Department of Energy Report                                 E-1
     F. Department of State Report                                  F-1
     G. Department of the Treasury Report                           G-1

Management Comments
     Secretary of State Comments                                     67
     Secretary of Defense Comments                                   73
     Secretary of Commerce Comments                                  75
     Secretary of Energy Comments                                    78
Acronyms

AES           Automated Export System
CIA           Central Intelligence Agency
DETRA         Defense Trade Application
ECASS         Export Control Automated Support System
FORDTIS/TPS   Foreign Disclosure and Technical Information System/
                Technology Protection System
OIG           Office of the Inspector General
PINS          Proliferation Information Network System
PKI           Public Key Infrastructure
SNAP/ESD      Simplified Network Application Processing/Electronic
                Support Documentation System
USXPORTS      U.S. Export Systems
Background
    Introduction. In August 1998, the Chairman of the Senate Committee on
    Government Affairs requested that the Inspectors General from the Departments
    of Commerce (Commerce), Defense (Defense), Energy (Energy), State (State),
    the Treasury (the Treasury), and the Central Intelligence Agency (CIA) conduct
    an interagency review of the export licensing processes for dual-use
    commodities and munitions. The objective of the review was to determine
    whether practices and procedures were consistent with national security and
    foreign policy objectives. An Interagency Offices of the Inspectors
    General (OIG) Report No. 99-187, “Interagency Review of the Export
    Licensing Processes for Dual-Use Commodities and Munitions,” was issued in
    June 1999.

    Public Law 106-65, National Defense Authorization Act for FY 2000,
    section 1402, “Annual Report on Transfer of Militarily Sensitive Technologies
    to Countries and Entities of Concern,” October 5, 1999, requires the President
    to submit an annual report to Congress, from year 2000 through year 2007, on
    the transfer of militarily sensitive technology to countries and entities of
    concern. The National Defense Authorization Act further requires that the
    Inspectors General of Commerce, Defense, Energy, and State, in consultation
    with the Director of Central Intelligence and the Director of the Federal Bureau
    of Investigation, conduct an annual review of policies and procedures of the
    U.S. Government with respect to their adequacy to prevent export of sensitive
    technologies and technical information to countries and entities of concern. An
    amendment to section 1402(b), in section 1204 of the National Defense
    Authorization Act for FY 2001, further requires that the Inspectors General
    include in the annual report the status or disposition of recommendations that
    have been set forth in previous annual reports under section 1402.

    To comply with the first-year requirement of the National Defense
    Authorization Act, the OIGs conducted an interagency review of Federal agency
    compliance with the deemed export licensing requirements contained in the
    Export Administration Regulations and International Traffic in Arms
    Regulations. Two interagency reports, “Interagency Review of the Export
    Licensing Process for Foreign National Visitors” and “Interagency Inspectors
    General Assessment of Measures to Protect Against the Illicit Transfer of
    Sensitive Technology,” were issued in March 2000. To comply with the
    second-year requirement of the Act, the OIGs conducted an interagency review
    to assess policies and procedures for developing, maintaining, and revising the
    Commerce Control List and the U.S. Munitions List. The report, “Interagency
    Review of the Commerce Control List and the U.S. Munitions List,” was issued
    in March 2001. This year, to comply with the third-year requirement of the
    Act, the OIGs conducted an interagency review of Federal automation programs




                                        1
            that support the export licensing and review process.1 Because the Department
            of the Treasury, Customs Service, reviews completed export licenses and
            exchanges law enforcement information by way of a nationwide system with
            Commerce and other Federal agencies, the Treasury OIG also participated in the
            interagency review.


Objectives
            Our overall objective was to determine whether the automated systems that
            Commerce, Defense, Energy, State, and the Treasury used to support the export
            license approval and review process were effective and whether system
            modernization initiatives were in accordance with Federal policies and
            regulations. Specifically, we reviewed processes and planned system
            improvement initiatives for the dual-use and munitions export licensing
            environments. In addition, we assessed the interagency efforts of the
            U.S. Export Systems Interagency Program Management Office, a Defense effort
            designed to help modernize the overall export licensing process.




1
    The CIA OIG declined to participate in the review because of its tangential role in the development of an
    automated Federal export licensing system.



                                                       2
                    A. Dual-Use Export Licensing
                       Environment
                    The dual-use export licensing process involves multiple automated
                    systems owned and operated by the different Federal licensing and
                    review agencies. However, many of those systems are no longer
                    effective for the present era of export license processing. Some of the
                    overall limitations include differing security standards among agencies,
                    cumbersome manual and paper-based processes, and no comprehensive
                    database of export information to help Federal agencies assess the
                    cumulative effect of multiple exports. According to the Office of
                    Management and Budget Circular No. A-130, “Management of Federal
                    Information Resources,” February 8, 1996, Federal agencies should
                    ensure that improvements to existing information systems and
                    development of planned information systems do not unnecessarily
                    duplicate existing information systems. Dual-use export licensing
                    agencies have made progress in modernizing their automated systems.
                    However, those agencies can do more to coordinate their systems
                    modernization efforts and need to adequately consider other system
                    alternatives for license processing needs beyond enhancing the interfaces
                    with existing licensing systems.


Background
           The Export Administration Act of 1979, as amended (Appendix 2401, title 50,
           United States Code),2 provides the primary legislative authority for export of
           dual-use commodities. Under the Act, Commerce’s Bureau of Export
           Administration administers the Export Administration Regulations by developing
           export control policies, issuing export licenses, and enforcing the laws and
           regulations for dual-use exports.3
           However, in response to the need for more transparency in the dual-use export
           licensing process, the President issued Executive Order 12981, dated
           December 5, 1995. Specifically, Executive Order 12981 provides Defense,
           Energy, and State the authority to review any license application that Commerce
           receives. The Executive Order also authorizes the Department of Justice
           (Justice) to review any export license application pertaining to encryption items.
           In addition, Commerce sends certain export license applications to the Weapons



2
    Although the Act expired on August 20, 2001, the President extended existing export regulations
    under Executive Order 13222, dated August 17, 2001, invoking emergency authority contained in the
    International Emergency Economic Powers Act.
3
    Commerce shares enforcement responsibilities with the Treasury’s Customs Service.



                                                     3
            Intelligence, Nonproliferation, Arms Control Group of the CIA for end-user
            review. Approximately 86 percent of dual-use export license applications are
            referred to reviewing agencies.

            Exporters can submit export license applications to Commerce either manually
            or electronically. In FY 2000, 61 percent of the 10,843 export license
            applications that Commerce received were electronically submitted. After
            Commerce receives a license application, the application information is entered
            into the Export Control Automated Support System (ECASS). Regardless of
            how the exporter submits the license application, the supporting documentation
            for the application must be sent in hard copy format.4 The supporting
            documentation is then manually duplicated and hand delivered to the review
            agencies, as appropriate.

            Both State and Justice have direct access to ECASS and use the system to
            process license applications referred to them. However, because Defense, 5
            Energy, and the CIA have classified systems, Commerce sends the unclassified
            export license information by way of dial-up lines to stand-alone personal
            computers at those agencies. Defense, Energy, and the CIA then put the
            information on a diskette and upload the information to respective classified
            systems, thereby ensuring the integrity of the systems.

            Finally, Commerce’s Bureau of Export Administration electronically transmits
            validated licensing information daily (for cases approved, denied, or returned
            without action) over a dedicated 56K data line to the Customs Service. The data
            is then entered into the Customs Service Treasury Enforcement Communications
            System database.6 The data are extracted nightly from the database and loaded
            into the Automated Export System (AES). The Customs Service and
            Commerce’s Bureau of Census developed AES as a joint effort. AES was
            designed to automate and streamline the process of filing a Shipper’s Export
            Declaration and the manifest of an outbound shipment to improve the accuracy
            of commodity data used to compile trade statistics, improve overall compliance
            with export control laws and regulations, and streamline the trade process.
            Figure 1 shows the agencies involved in the dual-use licensing process and the
            interfaces used to transmit data.




4
    Supporting documentation includes diagrams, schematics, or other information that describes the product
    to be exported as well as additional information concerning the end user or end use of the product.
5
    As a result of Defense’s recent Classification Domain Decision on December 14, 2001, Defense can
    migrate some of its export licensing data to an unclassified environment in the near future. Defense is
    studying adequate security safeguards for export licensing data.
6
    The database was created to provide multiagency access to a common database of law enforcement data
    supplied by law enforcement agencies.



                                                       4
                                         Current Automated Interfaces Used
                                      in the Dual-Use Export Licensing Process


         Defense                                                                                          State
      (FORDTIS/TPS)                                        Industry                                     (ECASS)
                                                     Paper and Electronic
         Classified                                     Applications                                  Unclassified




                                                       Commerce                                            Justice
              Energy                                   (ECASS)                                            (ECASS)
              (PINS)
                                                                                                        Unclassified
             Classified                               Unclassified




           CIA                                                                                           Treasury
         (EXCON)                                           Industry                                      (TECS)
                                                     Paper and Electronic
         Classified                                     License Data
                                                                                                        Unclassified



     LEGEND                                    ECASS       Export Control Automated Support System
                                               EXCON       Export Control System
             56K Line                          FORDTIS/TPS Foreign Disclosure and Technical Information System/
             Direct Access                                  Technology Protection System
             Dial-up Stand-Alone System        PINS        Proliferation Information Network System
                                               TECS        Treasury Enforcement Communications System

  Figure 1
  Source: Commerce Office of Inspector General


The Current Dual-Use Export Licensing Environment
      Office of Management and Budget Circular No. A-130 requires Federal
      agencies to develop information systems that facilitate interoperability across
      networks of diverse hardware, software, and telecommunications platforms.
      However, the dual-use export licensing systems have numerous limitations,
      including differing security standards across Federal agencies, cumbersome
      manual and paper-based processes, and no comprehensive database of exporting
      information to help Federal agencies assess the cumulative effect of multiple
      exports.

      Security Standards. The dual-use export licensing systems lack common
      security standards across Federal export licensing and reviewing agencies. The
      dual-use export licensing process comprises a broad range of systems and
      applications that reflect the evolving and unique needs of each export licensing


                                                       5
            agency. As a result, information sharing across Federal systems can be a
            technically challenging process. For example, the export licensing agencies
            have a variety of security standards. Business proprietary information contained
            in any automated export licensing system must be protected. Use of public key
            infrastructure (PKI) technology is one way of doing so.7 Defense and Energy
            have PKI standards and Commerce, State, and the Treasury are developing PKI
            standards. When automated systems that need to be interoperable do not have
            compatible or equivalent PKI standards, system information assurance
            certifications for those systems are difficult to obtain. If each system is already
            certified, but the certifications required differing PKI standards, connecting the
            systems and retaining each system’s certification is also difficult. Commerce
            and Defense hope to address the issue when the two agencies implement a pilot
            PKI program in May 2002 that will test potential solutions for PKI.

            Manual and Paper-Based Processes. The dual-use export licensing process is
            primarily manual and paper intensive. The Paperwork Reduction Act of 1995
            requires agencies to acquire, manage, and use information technology to
            improve mission performance and minimize the burden of information collection
            on the public. However, despite efforts toward automation, the export licensing
            process continues to involve large amounts of paper. While approximately
            61 percent of dual-use license applications are submitted electronically,
            supporting documentation is still provided in hard copy. The supporting
            documentation can range from a few sheets of paper to hundreds of pages.

            As an example of the range in supporting documentation, Commerce requires
            exporters to transmit dual-use supporting documentation in hard copy format.
            Commerce duplicates the documents and then delivers them by way of courier
            to the review agencies-a procedure that adds time and expense to the licensing
            review process.8 For the dual-use license applications that Defense reviews,
            export license applications and supporting documentation are repeatedly copied,
            reviewed, and shipped from and to numerous locations. In FY 2000, Defense
            spent almost $500,000 copying dual-use export license applications and close to
            $150,000 delivering documentation to organizations that perform technical
            analyses. Also, in FY 2000, Defense produced estimately 11.2 million pages of
            paper copies of export license applications and supporting documentation.

            Tracking Cumulative Effect. The dual-use export licensing process lacks an
            overall mechanism, automated or otherwise, for assessing the cumulative effect
            of exports or technology transfers. The National Defense Authorization Act for
            FY 2000 mandates that, by March 30 of each year through 2007, the Secretary
            of Defense, in consultation with the Joint Chiefs of Staff and the Director of the
            CIA, assess the cumulative impact of export licenses granted for exports to
            countries and entities of concern. As of November 2001, Defense began
            gathering information required to complete the assessment, but had not
7
    PKI is a technology designed to protect Internet electronic transactions through digital certificates and
    encryption keys. Digital certificates are used to verify and authenticate the validity of each party
    involved in an Internet transaction, and encryption keys are used to secure the data.
8
    Commerce and Defense are working on a solution to address this problem. See the Dual-Use Export
    Licensing Improvement Initiatives section for details.



                                                         6
    completed the assessment or taken further actions. The inability to track
    cumulative effect can have adverse consequences. Individual exports and
    technology transfers may appear benign if taken one by one. However, when
    combined with multiple exports from the United States and other countries and
    indigenous resources, the exports and technology transfers may allow
    U.S. adversaries to build weapons of mass destruction or obtain other
    capabilities that could threaten U.S. national security. Assessments of
    cumulative effect, resulting from a proposed export or category of exports,
    would be valuable to have during the export licensing review process for
    countries or entities of concern. Such assessments would need to consider
    technology transfers that result from dual-use and munitions exports, foreign
    military sales, and third-country sales to foreign countries, as well as the
    internal capabilities of a specific country. Consequently, the ability to
    effectively assess the cumulative effect of exports and technology transfers will
    require coordination, increased resources, and a comprehensive information
    database shared among all of the licensing agencies involved in the export
    licensing process.


Dual-Use Export Licensing Improvement Initiatives
    The agencies involved in the dual-use export licensing and review process have
    been individually and collectively making improvements to their export licensing
    systems. Commerce, Defense, Energy, and the Treasury have completed, or
    are in the process of determining, the system enhancements needed for
    individual export licensing and enforcement systems.

    Commerce. Commerce has long needed to replace its ECASS to effectively
    administer export control laws and regulations. During the recent review, the
    Commerce OIG found that Commerce has made progress in the development of
    a modernized ECASS 2000+ system, a redesign of its current ECASS system.
    However, for the project to be successful, the project will need dedicated
    resources, better planning, and continuous oversight by management and
    departmental personnel of the Bureau of Export Administration.

    Commerce has made progress on its ECASS 2000+ project. Specifically,
    Commerce (1) appointed an ECASS 2000+ project manager in March 2000,
    bringing direction and stability to the redesign effort; (2) developed, in
    conjunction with Defense, a “front-end” licensing subsystem, known as the
    Simplified Network Application Processing/Electronic Support
    Documentation (SNAP/ESD), that will allow exporters to submit on-line all
    types of license applications as well as the corresponding supporting
    documentation; and (3) selected software for its new Export Enforcement
    Investigative Tracking System. As a result, two components of ECASS 2000+
    should be ready for implementation in early to mid-2002.

    However, the Commerce redesign efforts need improvement in three key areas.
    First, Commerce needs better planning of the project to ensure long-term
    success, such as determining what business process reengineering
    recommendations need to be implemented, preparing a revised cost estimate for


                                         7
           its system redesign, and determining all of the ECASS 2000+ requirements.
           Second, Commerce needs to strengthen its modernization effort by
           implementing established information technology management best practices,
           such as a project management plan, a target architecture, and configuration
           management and risk management processes. Third, interagency cooperation
           on planning, design, and development has been mixed because Commerce has
           not involved the other licensing agencies in its own redesign effort beyond
           SNAP/ESD. For example, Commerce is developing ECASS licensing
           requirements without input or validation from the current review agency users
           (State and Justice) or potential review agency users (Defense). Both State and
           Justice currently use ECASS to process license applications referred to them,
           and Defense could use ECASS in the future now that Defense has determined
           that an unclassified licensing system can be used. As such, the other licensing
           and review agencies should be included in the development of licensing
           requirements for any new system (see Appendix C).

           Defense. To address interoperability concerns across agency lines, Defense
           created the U.S. Export Systems (USXPORTS) Interagency Program
           Management Office, which is working with Commerce to develop SNAP/ESD.
           Defense’s dual-use export license application review process is paper driven and
           requires export license applications and supporting documentation to be
           repeatedly copied, reviewed, and shipped from and to numerous locations. The
           Foreign Disclosure and Technical Information System/Technology Protection
           System (FORDTIS/TPS), 9 the Defense export control system, is a Secret-level
           classified system with limited accessibility that does not have direct connectivity
           to ECASS (see Appendix D). Defense is working with Commerce to develop
           SNAP/ESD and establish a dedicated T-1 line10 to improve connectivity between
           the two agencies and support the electronic exchange of dual-use export
           licensing approval and review information (see the USXPORTS Interagency
           Program Management Office section of this report for more details). However,
           planning for an automated Defense export licensing system that takes advantage
           of the improved connectivity provided by the T-1 line just began.

           Energy. Energy’s Proliferation Information Network System (PINS) is
           frequently upgraded to improve the dual-use export license application process.
           Recent efforts include adding to PINS nuclear data that will enhance the
           licensing officer’s review of dual-use license applications referred to Energy by
           Commerce. Those reference materials include data provided by the
           Nuclear Suppliers Group11 concerning export license denials by group members
           and information on proposals, such as joint projects between members of the


9
    FORDTIS/TPS is the primary Defense system for coordinating, reviewing, and deciding on requests to
    release sensitive military information and technology to other countries.
10
    A T-1 line is a high-speed connection that will enable faster transmission of data between the respective
    agencies.
11
    The Nuclear Suppliers Group is a multilateral control regime, comprised of 39 countries, that sets
    controls on nuclear material, equipment, and technology unique to the nuclear industry and on dual-use
    items that have both nuclear and non-nuclear commercial and military applications.



                                                       8
    Nuclear Suppliers Group and nations of the former Soviet Union. Analytical
    tools such as keyword searches and customized data searches have also been
    added to PINS.

    Energy OIG determined that communication between Energy and Commerce,
    which refers the majority of licenses reviewed by Energy, appears to be
    adequate. However, Energy does not receive information regarding the final
    purchase and/or shipment of a commodity once a license has been approved.
    Energy OIG was informed that the Treasury AES includes data about the final
    purchase and/or shipment of a commodity and that access to AES could enhance
    Energy’s review of export license applications. Energy OIG recommended that
    Energy coordinate with the Customs Service at the Treasury and the Bureau of
    Census at Commerce to ensure access by Energy to the information in AES
    (see Appendix E).

    The Treasury. No specific automation initiatives now exist between the
    Treasury’s Customs Service and Commerce regarding connectivity of their
    systems. Currently, a memorandum of understanding that provides the Bureau
    of Export Administration read-only access to records filed by the trade
    community in AES exists between Commerce’s Bureau of Export
    Administration and the Treasury’s Customs Service.

    The FY 2003 mandatory AES filing provisions for Shipper’s Export
    Declarations that the Proliferation Prevention Enhancement Act requires will
    provide a significant amount of export information to the export enforcement
    community on a more timely basis. As a result, the Bureau of Export
    Administration and the Customs Service will be better equipped to enhance
    protection against illegal exports to countries or to end users involved in
    developing weapons of mass destruction, activities supporting terrorism, or
    other prohibited end uses.


Interagency Approach Needed For Improved Automation
    Our 1999 interagency OIG report on the dual-use export licensing process
    cautions that without improved coordination among the licensing agencies, the
    simultaneous development of multiple and distinct export licensing automation
    systems will continue. The Clinger-Cohen Act requires agencies to identify
    information technology investments that could result in shared benefits or costs
    for other Federal agencies or local governments. Further, the Office of
    Management and Budget Circular No. A-130 requires Federal agencies to
    cooperate on the use of information technology to improve productivity,
    efficiency, and effectiveness of interagency processes and ensure that planned
    developments or improvements to existing information systems do not
    unnecessarily duplicate other information technology initiatives.

    While the dual-use export licensing agencies have taken some steps to
    participate and coordinate with each other and reviewing agencies to improve
    the current automated systems that support the process, none of the agencies has
    a clear plan of how they will continue to work together. Further, because the


                                        9
        agencies are developing licensing systems independently, dual-use export
        licensing agencies may not be adequately evaluating other system alternatives
        for export license processing needs beyond enhancing interfaces with existing
        licensing systems and creating the common electronic technical library,
        SNAP/ESD. For example, Defense identified several alternatives that could
        improve the export licensing process, including a hybrid “system of systems”
        and a single Federal dual-use licensing system.

               Hybrid System of Systems. The hybrid system of systems is designed
        to house all of the license and supporting data that industry submits in a single
        database that each licensing and reviewing agency could access. However, each
        export licensing agency would build or maintain its own licensing subsystem
        unique to agency needs and functions.

                Single Federal Unified Interagency Licensing System. A single
        Federal unified interagency licensing system could be developed to replace and
        integrate all of the Federal export licensing automated systems that support the
        export license review process. The system could incorporate the data that
        industry submits, each agency position, and any unique agency requirements
        (for example, enforcement).

        The interagency OIG review team agrees that the hybrid system-of-systems
        alternative offers a more integrated export licensing process environment than
        the prevailing system. In fact, at least one of the features of that alternative is
        being developed. Specifically, while the hybrid system-of-systems option
        includes a central repository for the data records that pertain to an export
        license, the SNAP/ESD subsystem that Commerce and Defense are developing
        will, in effect, be a central repository for electronically submitted supporting
        documentation. We believe that effort could easily be expanded to incorporate
        the remainder of the license record, including (1) license application data,
        (2) referral history, and (3) case disposition.

        We believe that Commerce and the review agencies can effectively use, at a
        minimum, one data repository to provide user access to all of the dual-use
        export licensing data while allowing agencies to maintain control of their
        respective databases for their internal review process. Aside from the efficiency
        and timeliness gains associated with the alternative, a central repository of
        license data will also provide a tool for cumulative effect analysis that can be
        used in processing future relevant licensing cases.

        Further, we believe there could be savings and efficiency gains, such as merging
        computer facilities, standardizing hardware and software, and reducing systems
        support staff, in having a single Federal dual-use licensing system. However,
        we realize that three of the six export licensing agencies—Defense,12 Energy,
        and the CIA—currently operate in a classified environment, which may make
        the development of a single dual-use licensing system harder to achieve at this

12
 According to Defense, its export license data is primarily unclassified. In addition, Defense recently
 completed an Operational Security study that concluded that the compilation of its classified export
 license data does not need to be classified based on the aggregation of the data.



                                                   10
    time. On the other hand, if Defense decides to migrate its unclassified export
    license data to an unclassified environment in the near future, the single Federal
    dual-use licensing system may be feasible for Commerce, Defense, Justice, and
    State. As noted above, Commerce, Justice, and State are already using the
    ECASS system. Thus, Commerce and Defense should explore the best methods
    available to meet Defense’s dual-use export licensing review needs.

    Finally, to forge improved cooperation and coordination, all of the participants
    need to take the necessary actions that will ensure dual-use export licensing
    systems are developed, integrated, and modernized without unnecessary
    duplication. Actions taken should include outlining the responsibilities of each
    agency to ensure maximum interagency cooperation and coordination in the
    licensing of controlled exports.


Recommendation, Management Comments, and OIG
  Response
    In response to draft comments received from Commerce and Defense, we
    revised the recommendation to exclude a memorandum of understanding and
    include the formation of a senior level organizational structure to oversee the
    systems development effort.

    A. We recommend that the Secretary of Commerce, in conjunction with
    the Secretaries of Defense, Energy, State, and the Treasury, take the
    necessary actions to establish accountability for developing, integrating, and
    modernizing Federal automated dual-use export licensing systems without
    unnecessary duplication. At a minimum, these actions should include the
    formation of a senior-level organizational structure, such as an interagency
    working group or steering committee, to oversee the system development
    efforts. This entity should undertake the following:
           1. Create a charter outlining the responsibilities of each agency in
    the design, development, and operation of a dual-use licensing system and
    how each agency will coordinate its automation efforts;

          2. Build on recent interagency efforts to modernize the interagency
    automated systems for processing export license applications;

          3. Develop a common central repository for all unclassified data
    records that pertain to the review and approval of an export license; and

            4. Establish performance goals and metrics to track the progress of
    the system development efforts and report on the interagency entity’s
    activities on a semiannual basis to the respective Secretaries.

    Defense Comments. The Acting Deputy Under Secretary of Defense (Policy
    Integration) responded for the Secretary of Defense. The Acting Deputy Under
    Secretary nonconcurred with the draft recommendation stating that a


                                        11
memorandum of understanding will do little to advance the progress of
information sharing. The Acting Deputy Under Secretary suggested a revised
recommendation to form an Interagency Operations Committee for controlling
future iterations of automated export exchange among participating agencies.

Commerce Comments. The Under Secretary for Export Administration
responded for the Secretary of Commerce. While the Under Secretary agreed
that the Federal automated dual-use export licensing systems should be
developed and modernized without unnecessary duplication, he did not agree
that this issue is best resolved by developing a memorandum of understanding at
the Secretary level, as recommended in the draft report. Instead, the Under
Secretary thought that the best course of action would be to assign responsibility
for this task to the appropriate operating units within Commerce, Defense,
Energy, State, and the Treasury. The Under Secretary also proposed that an
interagency mechanism, such as the existing USXPORTS Steering Committee or
a similar working group, be used to satisfy the OIG recommendation of
developing, integrating, and modernizing dual-use export licensing systems
without duplication.

Commerce’s Under Secretary stated that USXPORTS provides an excellent
model of how organizations can meet regularly to understand and resolve issues
related to export licensing systems design and implementation. He also stated
that because the Bureau of Export Administration has not yet started to develop
the licensing module of ECASS, now is an appropriate time to enlist officials at
Defense, State, and Energy to participate in the design and development of the
system. Finally, Commerce’s response notes that with the implementation of
SNAP/ESD in Spring 2002, a common central repository for unclassified
technical documentation that pertains to the review and approval of a dual-use
license application will be established.

Interagency OIG Response. While we agree that USXPORTS provides an
excellent forum to discuss and resolve issues related to the modernization of the
dual-use export control process among the participating agencies, we do not
believe that such an effort alone can address some of the major policy
commitments that need to be made. Currently, none of the agencies involved in
USXPORTS efforts has a clear plan of how they will continue to work together
once the SNAP/ESD project is complete. In addition, according to the Bureau
of Export Administration’s response to the Commerce OIG report on its ECASS
modernization efforts, Defense’s efforts (through its USXPORTS office) to fully
engage all of the export licensing agencies to improve the interagency export
licensing systems have not been successful. We agree and that is why we
recommended that the commitment to develop the interagency licensing systems
come from the Secretary level. At the current interagency working group level,
insufficient commitment to work together is present. The individual licensing
agencies have not adequately risen above their mission-related issues, interests,
and responsibilities to be able to develop integrated interagency licensing
systems that are both efficient and effective.

Therefore, we reiterate our recommendation for Commerce, in coordination
with the referral agencies, to take the necessary actions that will ensure dual-use
export licensing systems are developed, integrated, and modernized without


                                    12
        duplication. Actions taken should include outlining the responsibilities of each
        agency involved in the process to ensure maximum interagency cooperation and
        coordination in the licensing of controlled exports. We agree with Commerce
        and Defense that an interagency steering committee or working group should be
        established to help coordinate the various modernization efforts. However, to
        ensure that such a committee is effective, we believe Secretary-level
        commitment is needed.

        Finally, while we commend Commerce for working with Defense to develop
        SNAP/ESD to house the unclassified technical documentation for license
        applications, we believe that such an effort should be expanded to include all of
        the licenses and pertinent information, not singly technical data. Currently,
        only one referral agency (State) has the ability to centrally view application data,
        agency comments on license applications, and final disposition on cases referred
        to it.13 However, by creating a central repository for unclassified export
        licensing data (including, at a minimum, license application data, referral
        history, and the final disposition of a case), each referral agency could have the
        information available when making a decision on a license application or other
        referral. As such, we reiterate our recommendation that Commerce, along with
        Defense, Energy, State, and the Treasury, develop a common central repository
        for unclassified data records that pertain to the review and approval of an export
        license application.




13
 The Bureau of Export Administration informed us that it previously developed subprograms for Defense
 and the CIA to view agency comments and final disposition of cases, but it is not sure if the
 subprograms are being used anymore.



                                                 13
                 B. Munitions Export Licensing
                    Environment
                 The munitions export licensing process involves multiple automated
                 systems owned and operated by Federal licensing and reviewing
                 agencies. The munitions licensing process is inefficient and
                 unnecessarily burdensome, in part because of the uncoordinated manner
                 in which State and other Federal agencies introduced licensing systems.
                 The process involves multiple, unintegrated systems and, consequently,
                 extensive use of manual and paper-based processes, redundant input of
                 information, and inadequate tracking mechanisms. As the munitions
                 export license approval agency, State has taken some steps to upgrade its
                 information technology capabilities. However, State’s systems
                 modernization approach focuses primarily on automating aspects of its
                 internal processes and does not include adequate risk management,
                 identification of requirements, or coordination with industry and other
                 Federal agencies involved in the licensing process. By working together
                 and building upon agency munitions initiatives that are underway, State
                 can lead the way to provide secure, integrated systems that could
                 streamline the Federal munitions export licensing process as a whole.


Background
        The Arms Export Control Act (section 2751, title 22, United States Code)
        provides the primary legislative authority for munitions exports.14 Under the
        Arms Export Control Act, State is responsible for authorizing the export of
        munitions, which are goods and technologies the U.S. Munitions List designates
        as Defense articles and/or Defense services. State administers the Act through
        review of munitions export license applications prepared as required by the
        International Traffic in Arms Regulations. The regulations specify requirements
        and procedures that persons subject to U.S. jurisdiction must follow to send
        Defense articles and/or Defense services abroad.

        The munitions export licensing process involves multiple agencies and
        automated systems. To ensure that exports are authorized in accordance with
        U.S. foreign policy, national security, and nonproliferation objectives, State
        refers some munitions export license requests to other State organizations and
        Federal agencies. Exporters can submit a munitions license application to State
        either by hard copy through the mail or courier, or electronically through the
        Internet or dial-up server. State requires that an exporter submit an original and
        eight copies of each license application along with supporting documentation.
        Approximately 60 percent of the 45,000 munitions export license applications
        received annually are electronically submitted to State. For those applications,
14
 The Arms Export Control Act authorizes the President to control the export of items included on the
 U.S. Munitions List. The President delegated this responsibility to the Secretary of State by Executive
 Order 11958,which was signed in January 1977.



                                                   14
   supporting documentation must be provided in hard copy and then matched to a
   copy of the electronic license application. State will then enter information from
   the license application into its Defense Trade Application (DETRA) system,
   which State uses for tracking license applications, scanning and storing
   supporting documents or materials, and querying license status.

   Figure 2 depicts the data exchange among agencies and exporters involved in
   the munitions export licensing process.




                               Current Automated Interfaces Used in
                              the Munitions Export Licensing Process


                                                  Industry
                                            Paper and Electronic
                                               Applications




              Defense                              State                                     Energy
          (FORDTIS/TPS)                          (DETRA)                                     (PINS)
             Classified                                                                     Classified
                                                Unclassified




                                                  Industry                                     Treasury
                                            Paper and Electronic                                (AES)
                                                  Licenses
                                                                                             Unclassified


    LEGEND
                                     AES                  Automated Export System
                                     DETRA                Defense Trade Application system
                                     FORDTIS/TPS          Foreign Disclosure and Technical Information System/
                                                            Technology Protection System
           Manual Interface
                                     PINS                 Proliferation Information Network System


Figure 2
Source: State Office of Inspector General




                                               15
    More than one-half of the applications that State refers for review are sent to a
    variety of internal bureaus and offices. Those applications are transferred by
    interoffice mail, fax, or courier. However, approximately one-third of all of the
    munitions license applications are reviewed by other Federal agencies. Of the
    license applications that State sends out for external review, Defense receives
    more than 85 percent. On a daily basis, State delivers many boxes containing
    up to five copies of each application and supporting documentation to the
    Defense Technology Security Administration—the primary Defense Component
    that advises State on export license applications. After receiving an application
    from State, Defense enters summary data into the FORDTIS/TPS. Defense then
    sends the applications to various Military Departments and Defense Components
    for further review by technical experts. After technical review of the
    applications, Defense electronically sends its recommendations on munitions
    license applications to State. Occasionally, State receives applications regarding
    the export of items that can be used in the design, development, or fabrication
    of nuclear weapons, which it transmits in hard copy to Energy for review.
    When all of the external reviewer positions are received from the reviewing
    agencies on a given application, State enters the information into DETRA and,
    if appropriate, issues the approved license to the exporter.

    Prior to shipment of munitions items, exporters send hard copies of Shipper’s
    Export Declarations and approved export licenses to the Customs Service.
    When export licenses are approved, State sends the license data to the Customs
    Service. Both the exporter and State data are then entered into the Customs
    Service AES. The AES automatically matches the data to ensure compliance
    with the Arms Export Control Act. After the license expires or is depleted, the
    Customs Service returns a hard copy of the license to State for archiving.


Current Munitions Export Licensing Environment
    As previously discussed, the U.S. munitions export licensing process comprises
    a broad range of systems and applications; however, the systems are not
    developed and operated in a coordinated manner. The Office of Management
    and Budget Circular No. A-130 requires that Federal agencies develop
    information systems to facilitate interoperability across networks of diverse
    hardware, software, and telecommunications platforms.

    Connectivity. Limited connectivity exists among the Federal agency systems
    because of different operating systems, software applications, and data security
    standards. For example, State processes munitions license applications by way
    of DETRA, a stand-alone system without connectivity to either the web-based or
    dial-up applications industry uses to submit the applications. According to State
    officials, use of the stand-alone system is a security measure to protect sensitive
    information from public disclosure. Further, because Defense’s FORDTIS/TPS
    and Energy’s PINS are classified, State has no direct connectivity to either
    system.

    Because of the lack of connectivity, the interagency munitions export licensing
    process is neither seamless nor efficient, and places an unnecessary burden on


                                        16
industry and Federal agencies involved in export control. The process involves
extensive use of manual and paper-based transfer of information that recipient
organizations must enter into computer systems. In addition, no single method
exists for tracking munitions export license applications throughout the process
from initial submission, through referral to other agencies for review, and on to
final disposition. We believe that those problems contribute to lack of timeliness
in the munitions export licensing process.

        Manual and Paper-Based Processes. The munitions export licensing
process is manual and paper intensive. The Paperwork Reduction Act of 1995
requires agencies to acquire, manage, and use information technology to
improve mission performance and minimize the burden of information collection
on the public. However, despite efforts toward automation, Government and
industry still use voluminous amounts of paper to process and review export
license applications. While approximately 60 percent of munitions export
license applications are submitted electronically, supporting documentation is
provided in hard copy. The supporting documentation can range from a few
sheets of paper to hundreds of pages.

State requires industry to provide an original and eight copies of each munitions
license application and the supporting documentation. Applications sent
internally for review are transmitted by interoffice mail, fax, or hand delivery
because of a lack of systems connectivity. License applications sent to other
Federal organizations for review are handled through courier or mail, where as
many as five copies of each application and supporting documentation may be
sent.

Further, for the munitions export license applications that Defense reviews,
applications and supporting documentation are repeatedly copied, reviewed, and
shipped to numerous Defense locations. In FY 2000, Defense spent more than
$1.3 million copying munitions export license documentation and more than
$203,000 delivering that documentation to the organizations that perform
technical analyses. Also, in FY 2000 Defense produced about 32.4 million
pages of paper copies of munitions export license applications and supporting
documentation.

        Input of Information. The manual processes and lack of Federal
agency connectivity requires the same munitions license application information
to be input to computer systems multiple times. State personnel must input into
DETRA the information from hard copy munitions license applications they
receive. Munitions license application reviewers at Defense and Energy also
scan or type the data received from State’s Office of Defense Trade Controls
into their own systems. Defense officials spend approximately 5 to 10 minutes
entering dual-use and munitions license data into FORDTIS/TPS for each
application they review. The time required for data entry increases to more
than 30 minutes for export applications that involve international agreements,
which comprise 50 percent of the total munitions export license applications
Defense receives.




                                    17
            Tracking Capability. The munitions export licensing process lacks an
    adequate tracking mechanism. Specifically, no single method exists for tracking
    munitions license applications throughout the process from initial submission to
    final disposition. For example, some bureaus within State use manual methods
    to track the applications that they receive or forward to other offices for review.
    Exporters can use the Electronic License Entry System to determine whether
    State received their munitions license applications or referred them to other
    organizations for review. However, according to Government and industry
    officials interviewed, the Electronic License Entry System does not always
    accurately reflect an application’s location, nor is the system available to track
    applications in review at Defense or other bureaus within State.

    The Defense system, FORDTIS/TPS, is used to track license applications.
    However, the system reflects only to which Military Department an application
    was referred for technical analysis. The system does not reflect the specific
    command or program office that is conducting the technical evaluation within
    that Department. Further, Inspector General, DoD, Report No. 99-186,
    “Review of the DoD Export Licensing Processes for Dual-Use Commodities
    and Munitions,” June 18, 1999, concludes that FORDTIS/TPS does not always
    contain accurate and complete information on Defense and other
    U.S. Government recommendations for license applications. In addition, the
    FORDTIS/TPS does not always contain the final U.S. Government position for
    export license applications.

    Timeliness. The problems discussed above are some of the reasons lack of
    timeliness in the export licensing processes exists. Specifically, manual and
    paper-based processes require additional time in processing export license
    applications, as well as the need to input information multiple times and make
    and circulate multiple copies. Further, the lack of an interagency tracking
    system for munitions licenses contributed to the lack of timeliness in reviewing
    and processing applications. Manual methods to track applications can delay the
    processing and forwarding of applications. The problem was noted by the
    General Accounting Office in Report No. GAO-02-203, “Reengineering
    Business Processes Can Improve Efficiency of State Department License
    Reviews,” December 2001. The General Accounting Office concluded that
    thousands of munitions license applications were delayed during FY 2000 as a
    result of the lack of license review procedures and a system to track
    applications.


Munitions Export Licensing Improvement Initiatives
    The Federal agencies responsible for reviewing munitions export license
    applications generally have been individually and collectively making
    improvements to their export licensing systems.

    State. State has instituted a number of information technology initiatives that
    will improve the munitions licensing process. For example, State redesigned its




                                        18
            website for submitting munitions export license applications to make it more
            user friendly and ensure compliance with section 508 of the Rehabilitation Act.15
            The Act requires that all Federal departments and agencies, when developing,
            procuring, maintaining, or using information technology, ensure that access for
            individuals with disabilities is comparable to access for individuals without
            disabilities. Further, State is working to increase connectivity with Defense
            through installation of a T-1 line.

            The T-1 line is able to send and receive large text files, graphics, sounds, and
            databases instantaneously and is the fastest speed commonly used to connect
            networks to the Internet. With a T-1 line, Defense can electronically transmit to
            State final dispositions on applications referred to Defense for review. To
            document and certify its information technology system, State hired an
            independent contractor. The independent contractor will also provide
            recommendations for systems enhancement, including database conversion and
            electronic licensing data processing (see Appendix F).

            Defense. Defense implemented or has plans to implement several internal
            automated systems that will not only reduce the paperwork burden but also
            increase the efficiency of portions of the Defense export license dissemination
            and review process (see Appendix D). A T-1 line was established to improve
            connectivity between State and Defense, and is currently used to transfer
            Defense’s position to State and also to send data for hundreds of cases in
            support of U.S. anti-terrorist activities under Operation Enduring Freedom.

            Energy. A small number of nuclear-related munitions export license
            applications are referred to Energy by State for review. Energy’s system,
            PINS, is used to review munitions export license applications. To improve
            communications regarding reviews of export license applications for munitions,
            Energy OIG recommended that Energy coordinate more closely with State on its
            review of license applications and receive information about the final disposition
            of referred applications (see Appendix E).

            The Treasury. No specific automation initiatives exist between the Treasury
            Customs Service and State regarding connectivity of their respective systems.
            Discussions to address system requirements needed for compatibility are
            ongoing between the Treasury Customs Service and State.


Comprehensive Approach Needed For Improved Automation
            The agencies involved with munitions licensing should collectively address an
            approach to improved automation in the munitions export licensing process. By
            working independently, the agencies have tended to automate certain aspects of
            the existing process without addressing the fundamental issue of improved
            connectivity throughout the Government, which has served to perpetuate
            existing inefficiencies. Further, the agencies have not agreed on information

15
     Public Law 106-398, 114 Stat. 1654, 29 United States Code 701 et seq (2001).



                                                     19
security standards needed to obtain approval for moving to a more interoperable
systems environment. By not coordinating automation initiatives, the agencies
have been unable to identify and address mutual process improvement and
system requirements and are duplicating efforts that, if coordinated, could
benefit all. A more comprehensive effort, including executive-level oversight
and formal agreement on agency roles and responsibilities for carrying out the
joint approach, is needed to improve the munitions export licensing process as a
whole.

Security Concerns. The information security risks that connectivity poses have
contributed to agency reluctance to migrate to a more interoperable systems
environment. Although the agencies may be justified in their concern for
information security during this era of increased threats, the traditional approach
of maintaining unintegrated systems to avoid security risks is inappropriate in
today’s Federal information technology environment. Specifically, the Office of
Management and Budget Circular No. A-130 requires that agencies “protect
government information commensurate with the risk and magnitude of harm that
could result from the loss, misuse, or unauthorized access to or modification of
such information.” Managing information technology risks, rather than
avoiding them, should be the common goal.

To meet the requirements of the guidelines, munitions export licensing agencies
must develop a security approach that can best protect integrated systems and
the exchange of licensing data across agencies. Security standards must be
agreed upon before systems can be interoperable. For example, Defense has
concerns about PKI standards being developed by the various license and review
agencies. If the agencies do not establish compatible or equivalent PKI
standards, approvals for connectivity will be difficult to obtain. Close
coordination can help to forge the agreement needed on information security.

Defining Requirements for Improved Automation. Automating inefficient
business processes is not likely to make them more efficient. As such, Federal
regulations advise that agencies examine underlying processes and consider
streamlining alternatives before transitioning to new or improved electronic
business systems. Communicating and coordinating with users or other parties
involved in the work processes are essential to effectively identify requirements
that the systems are to address.

State has not adequately participated in interagency efforts to address concerns
about inefficiencies in the munitions licensing process. In addition, coordination
among munitions export licensing participants has been limited, and system
requirements have not been fully identified. Relevant industry and Government
organizations have not been adequately consulted to address their concerns about
inefficiencies in the munitions licensing process. For example, industry officials
stated that they submit different information for each munitions license
application because State requirements are not clear. Some exporters reference
examples of prior munitions license applications to determine the information
needed for new submissions and help ensure the submissions are complete.
Further, officials from State’s regional bureaus stated that only a limited amount
of information is required for their bureaus to review a munitions license
application. However, State sends all of the license data it receives to the


                                    20
    regional bureau. Receiving unnecessary information has lengthened and
    complicated the munitions review process because regional bureau officials have
    to search through voluminous amounts of paper to locate needed information.
    In addition, Defense officials indicated that they often receive insufficient
    supporting documentation when State refers munitions export license
    applications to them for review. As a result, Defense officials have to contact
    industry for additional information before they can conduct the reviews and
    formulate decisions on a license application. Energy also does not receive
    prompt responses from State regarding munitions export license applications and
    does not receive final dispositions on the munitions cases it reviews.

    Coordination of Effort. Munitions export license agencies are not coordinating
    their ongoing individual efforts with industry and other Federal agencies to
    improve the export licensing process. The Clinger-Cohen Act requires that
    agencies identify information technology investments that could result in shared
    benefits or costs for other agencies or local governments. Further, the Office of
    Management and Budget Circular No. A-130 requires that Federal agencies
    cooperate on the use of information technology to improve productivity,
    efficiency, and effectiveness and ensure that planned developments or
    improvements to existing information systems do not unnecessarily duplicate
    other information technology initiatives.

    A number of organizations are addressing similar issues, including
    standardization, tracking, electronic transmission of supporting documentation,
    and information security in the export licensing process. For example, State is
    working with contractors to develop electronic licensing. Defense is attempting
    to add technical specifications to its system and allow users to attach notes to
    license applications that are electronically sent to other Defense Components for
    review. In addition, Energy frequently upgrades its PINS to improve the
    automation of its review of export license applications. By working together,
    the agencies have the potential to capitalize on each other’s ongoing
    improvement projects.


Conclusion
    By working together, munitions export licensing agencies will save time, effort,
    and resources, as well as achieve results that will be mutually beneficial. For
    example, the munitions export licensing agencies can collectively address the
    lack of connectivity, the need for security standards, and specification of
    requirements for improving automation in the Federal munitions export
    licensing process without duplicating effort.

    To forge improved cooperation and coordination, Defense, Energy, State, and
    the Treasury need to develop a memorandum of understanding that will help
    ensure that automated munitions export licensing systems are developed,
    integrated, and modernized without duplication. Further, the memorandum of
    understanding should outline the responsibilities of each agency to ensure
    maximum interagency cooperation and coordination in the licensing of
    controlled exports.


                                       21
Management Comments on the Finding and OIG Response
    State Comments. The Assistant Secretary of State, Bureau for Political-
    Military Affairs responded to the draft report for the Secretary of State. We
    have included a copy of the comments in their entirety in the management
    comments section.

    The Assistant Secretary stated that, like the recent State OIG report
    (Appendix F), the interagency report tackles a complex subject and gives the
    bureau much to consider in reforming the Defense trade controls function. The
    Assistant Secretary agreed that State’s munitions export license review process
    has ample room for improvement and outlined several initiatives underway to
    address the need for greater efficiency. The Assistant Secretary also stated that
    the bureau is prepared to pursue an approach to improved automation in the
    munitions export licensing process involving other agencies.

    Nevertheless, the Assistant Secretary provided several observations about details
    in the report that he hoped would be useful. As appropriate, we made changes
    in the report to address the observations and ensure accuracy in the information
    presented. We are also providing more detailed responses to several comments
    on which we continue to differ.

    Interagency OIG Response. Specifically, we do not agree that our
    characterization of the munitions license review process as “inefficient and
    unnecessarily burdensome” is inappropriate. As discussed above, extensive use
    of paper and manual processes exist in the munitions export licensing process.
    At its expense, industry must provide an original and eight copies of information
    ranging from a few sheets to hundreds of pages to support each application
    submitted. To process and review the applications, State and other Federal
    agencies then use multiple, unintegrated systems, linked by manual and paper-
    based transfer of information that must be entered by recipient organizations
    into computer systems--a time consuming and costly activity. In FY 2000,
    Defense spent more than $1.3 million to copy, and more than $203,000 to
    deliver the license information to technical organizations for review.

    We also do not agree that this report’s description of the use of paper and other
    features in the current export licensing process ought not be equated with an
    inefficient licensing process. We believe that the facts presented in this report,
    as supported by the State OIG report, justify this characterization. Such
    paper-based activities are also not consistent with information technology reform
    legislation. Specifically, the Paperwork Reduction Act of 1995 requires that
    Federal agencies “promote the use of information technology by the agency to
    improve the productivity, efficiency, and effectiveness of agency programs,
    including the reduction of information collection burdens on the public and
    improved dissemination of public information.” In addition, the Government
    Paperwork Elimination Act requires agencies to provide for the option of the
    electronic maintenance, submission, or disclosure of information when
    practicable as a substitute for paper.




                                        22
    Further, while we recognize State’s recent plans to improve the efficiency of the
    export license review and approval process, we stand by our conclusion that
    “there is a lack of timeliness in the export licensing processes.” As stated
    above, manual and paper-based processes require additional time and effort to
    repeatedly input information and make and circulate multiple copies of license
    applications. The lack of a single, interagency tracking system and the use of
    manual tracking means can also delay processing and forwarding of
    applications. As the General Accounting Office reported in December 2001,
    thousands of munitions license applications were delayed during FY 2000
    because of a lack of license review procedures and inadequate tracking systems.


Recommendations, Management Comments, and OIG
  Response
    In response to draft comments received from Defense, we revised the
    recommendation to identify, as part of a memorandum of understanding, an
    interagency committee or working group to oversee the systems development
    effort.

    B. We recommend that the Secretary of State develop a memorandum of
    understanding with the Secretaries of Defense, Energy, and the Treasury
    that will help ensure that Federal automated munitions export licensing
    systems are developed, integrated, and modernized without unnecessary
    duplication. The memorandum of understanding should outline the
    responsibilities of each agency in the design, development, and operation of
    a munitions licensing system and how each agency will coordinate its
    automation efforts. The memorandum of understanding should also
    identify an organizational structure, such as an interagency group or
    steering committee, to oversee the systems development effort.

    State Comments. The Assistant Secretary of State, Bureau for
    Political-Military Affairs, responded to the draft report for the Secretary of
    State. The Assistant Secretary for Political-Military Affairs concurred with the
    recommendation that State take the lead in developing a memorandum of
    understanding with several agencies to address information technology systems
    and coordination requirements. The Assistant Secretary stated that he would
    assume executive-level oversight for the Bureau for Political-Military Affairs
    and, as needed, the Department, in exploring development of an agreement
    regarding roles and coordination of respective agency automation efforts in the
    munitions export licensing process.

    Defense Comments. The Acting Deputy Under Secretary of Defense (Policy
    Integration) responded for the Secretary of Defense. The Acting Deputy Under
    Secretary nonconcurred stating that a memorandum of understanding will do
    little to advance the progress of information sharing. The Acting Deputy Under




                                       23
Secretary suggested a revised recommendation to form an Interagency
Operations Committee to control future iterations of automated export exchange
among participating agencies.

Interagency OIG Response. We believe that the recommendation on
developing a memorandum of understanding to ensure coordination of agency
efforts to modernize their munitions export licensing systems is appropriate.
The Defense suggestion for an Interagency Operations Committee has merit,
and we have revised our recommendation to identify as part of the memorandum
of understanding, an interagency organization. However, the agencies involved
in the licensing process should have the flexibility to decide among themselves
the roles and preferred approach to promoting information sharing and
overseeing interagency coordination. Development of a memorandum of
understanding is the first step toward achieving and documenting such
agreement.




                                  24
           C. U.S. Export Systems Interagency
              Program Management Office
           To address interoperability concerns across agency lines, Defense
           created the USXPORTS Interagency Program Management Office. The
           USXPORTS program office has achieved much in partnership with
           Commerce by planning and implementing improvements in the export
           licensing process for dual-use commodities. However, the USXPORTS
           program office is not meeting its original goal to modernize the entire
           Federal export licensing process by providing participating agencies with
           electronic access to pertinent export data. The program lacks full
           participation by State and other involved entities, key project milestones
           have slipped, and funding requirements have not been sufficiently
           documented. As a result, the USXPORTS program office has been
           unable to fully address inefficiencies, identify requirements, and
           streamline the Federal munitions export licensing process.


USXPORTS Background
    In the 1999 interagency report on the export licensing process, we cautioned
    that, without improved coordination among the licensing and reviewing
    agencies, simultaneous development of multiple export licensing automation
    systems would continue. Therefore, we recommended that the agencies
    coordinate their systems development efforts. In response to our 1999 report
    recommendation, in May 2000, Defense established the USXPORTS
    Interagency Program Management Office. The stated mission of the
    USXPORTS is to “. . . modernize the export control process through easy and
    timely access to pertinent export data electronically among participating
    agencies. This includes enhancing systems and the protection of data across
    agencies.”


USXPORTS Progress and Limitations
    USXPORTS Progress. Since May 2000, the USXPORTS program office has
    analyzed the Federal export licensing process. Working with the licensing
    agencies, the USXPORTS program office has begun to make key improvements
    to automating that process. USXPORTS has been responsible for conducting a
    comprehensive business process reengineering study of the dual-use licensing
    process, developing the SNAP/ESD system, establishing dedicated
    T-1 communication links between Defense and the licensing agencies, and
    implementing the Secure Air Force Export Data System. In addition, on
    December 20, 2001, USXPORTS awarded a contract task order supporting
    USXPORTS “to design, develop, acquire, and deploy a modern automated
    export license processing and analysis ‘system of systems,’ interoperable among
    all export license regulatory and reviewing agencies of the U.S. Government.”


                                       25
           The USXPORTS Quarterly Report, July 16, 2001, defines a “system of
           systems” as a system that will support the reengineered export license review
           process within Defense and will be interoperable among Defense agencies, the
           Military Departments, as well as Federal export license regulatory and
           reviewing agencies including connectivity to industry license applicants. In
           addition, a common electronic technical library will be established with
           interfaces to industry and the internal systems of each Federal agency. Each
           non-Defense agency will fund the modernization of its own internal system.

                  Business Process Reengineering Study. USXPORTS recently
           completed a major interagency business process reengineering analysis of the
           dual-use licensing process.16 The business process reengineering improvement
           recommendations are based on requirements identified by six interagency focus
           groups, comprised of representatives from Commerce, Defense, Energy, and
           State. The four major reengineering improvement recommendations identified
           by USXPORTS are to:

               •   broaden the electronic business exchange between industry and the
                   U.S. Government by (1) registering companies and individuals,
                   (2) creating a single point of entry, and (3) submitting application data
                   and technical specifications electronically;

               •   provide robust data retrieval and provide tools for cumulative effect
                   analysis;

               •   enhance the license review and analysis process by establishing an
                   interagency review team early in the process and improving interagency
                   communication technology; and

               •   migrate to an unclassified data environment by creating an unclassified
                   export licensing environment.

           In October 2001, the USXPORTS program office briefed its Steering
           Committee, comprised of senior Commerce and Defense officials, on the
           proposed business process reengineering recommendations. According to
           USXPORTS, the committee has approved the reengineering recommendations,
           with slight modifications, and the next step is to determine how to implement
           those recommendations.

                   SNAP/ESD. USXPORTS and Commerce are jointly working on the
           development of the SNAP/ESD system, which will enable exporters to submit
           dual-use license applications and supporting documentation on line. In addition,
           review agencies will have real-time access rights to the document library,17 a
           repository of electronic copies of documents relating to a dual-use export license
           application.

16
     USXPORTS Business Process Reengineering (Draft), August 28, 2001.
17
 Specific access by the review agencies will be limited to only the documentation relating to those
 applications that have been referred to them by the Bureau of Export Administration.



                                                   26
The USXPORTS program office is funding the SNAP/ESD development effort,
although the project manager for Commerce’s ECASS 2000+ is responsible for
overseeing the project. Once completed, USXPORTS will turn the system over
to Commerce to house and maintain SNAP/ESD equipment and databases.
USXPORTS estimates that it will spend about $1 million to complete the
SNAP/ESD system. SNAP/ESD is scheduled for full implementation in
March 2002.

        Dedicated T-1 Lines. USXPORTS is working with Commerce and
State to improve the respective automated interfaces with Defense by
establishing a dedicated T-1 communication link. As of January 2002, security
testing of the Commerce/Defense T-1 line was underway. When the line
becomes fully operational it will be used to support the dual-use SNAP/ESD.
The Commerce/Defense T-1 line can exchange application data, including
Defense-recommended positions, technical library information, and Commerce
positions.

The State/Defense T-1 line has been installed and used to transfer information
on emergency export licenses for material that supports the war on terrorism.
However, Defense and State have not reached agreement on technical
procedures or test protocols, and the information transferred has in most cases
been of limited use. Executive dialogue continues between Defense and State on
use of the T-1 line, but no apparent progress has been made to adequately
exchange export license application data in an electronic format.

        Secure Air Force Export Data System. To replace a predominantly
manual munitions license review process and to begin reducing the volumes of
paper generated by the current referral process, USXPORTS implemented an
unclassified, web-based information system for the Air Force that enables the
rapid electronic dissemination of munitions export license applications.
According to USXPORTS officials, the interface automates the transfer of data
from the Defense Technology Security Administration to the appropriate Air
Force referral component commands. USXPORTS expects to use the Secure
Air Force Export Data System, which was delivered in January 2002, as the
prototype for Military Department interfaces. The majority of export license
applications reviewed by the Air Force and the other Military Departments are
for munitions.

        USXPORTS “System of Systems” Task Order. On December 20,
2001, USXPORTS awarded a contract task order with an estimated value of
$22.4 million. As of February 2002, the contract task order has been funded
with about $1 million. USXPORTS plans to incrementally fund the remainder
of the contract task order based on the availability of FY 2002 funds. The
contract task order period of performance lasts through December 2004. The
scope of the contract task order is to provide program management,
development, and systems integration services to USXPORTS in support of its
export licensing modernization effort. The primary areas of support include:

       •   Program Management Support;

       •   Requirements Analysis;


                                    27
       •   Process Reengineering;

       •   Security Engineering;

       •   Software Engineering;

       •   Integration Testing; and

       •   Incremental Deployment.

Limitations of USXPORTS Initiatives. The effectiveness of USXPORTS
efforts has been limited by a lack of participation by all the agencies in the
export licensing process. In addition, key project milestones have not been met
and funding requirements have not been sufficiently defined.

        Agency Participation. Defense envisioned that Commerce and State
would be full participants in the USXPORTS effort to modernize the export
control process; however, only Commerce has agreed to do so. Although State
recently began communicating with USXPORTS on ways to coordinate
munitions export licensing improvement initiatives, State has declined to
participate directly with the USXPORTS program, and no coordinated
interagency effort to improve the munitions export licensing process exists.
USXPORTS, as a Defense organization, does not have the authority to require
licensing agencies to participate in the effort to modernize the export control
process.

While Commerce and Defense are working together to modernize the dual-use
export licensing process, neither Commerce nor Defense has clear plans as to
how they will continue to work together in their respective dual-use export
licensing modernization efforts. Energy has participated in several meetings at
the invitation of USXPORTS and has provided two demonstrations of PINS. In
addition, USXPORTS met with Energy in October 2001 to review Energy’s
comments on the Business Process Reengineering report. Further, USXPORTS
was provided with access to PINS architecture to evaluate PINS capabilities
against USXPORTS requirements documents. However, since April 2001
limited interaction has taken place between Energy and USXPORTS. Finally,
although USXPORTS and the Treasury initially discussed how best they could
work together, no subsequent interaction has occurred.

        Key Project Milestones. Although USXPORTS is breaking new ground
in coordinating the development of Federal interagency systems, the
USXPORTS program office has not met key project milestones in accordance
with its original program schedule. Key project milestones represent critical
junctures in the development of a system. When those dates are not met, the
entire development schedule is delayed. If key milestones are not completed,
the program will not be successful. The following table illustrates project
milestones. During our review, the Program Manager informed the interagency
OIG review team of slippage in milestone schedules, in part because of the
slowness of the funding process and in part because of the careful deliberation
of major policy issues by program oversight officials. In the Program
Manager’s view, the project delays to date have not reached a point where the


                                      28
        program is in jeopardy. However, we disagree and believe that as a result of
        the adjustments, a high risk of the USXPORTS’ program not meeting its project
        completion dates and overall goals exists.



                       Delayed USXPORTS Project Milestones
      Document             Original Due Date       Adjusted Due Dates           Date Completed
 System Requirements
     Specifications             June 2001             December 2001                Pending
  Target Architecture          August 2001             March 2002                  Pending
      Functional
     Requirements
       Document                August 2001            December 2001             December 2001
      Analysis of
      Alternatives                 N/A                  March 2002                 Pending
Sources: Appendix B, Task Order Management Plan, March 20, 2001 and
         USXPORTS meeting with interagency working group on December 27, 2001


               Funding Requirements. USXPORTS has not sufficiently identified
        funding requirements for modernization of the export licensing process.
        Defense officials calculated, without comprehensive analysis, the estimated costs
        for development and procurement of export licensing system(s) at $30 million
        when the officials were told that funds for an automated export licensing system
        would become available. USXPORTS has not subsequently adjusted the
        estimated funding requirements, although current plans for an interagency
        export licensing system of systems do not match the plan for a single
        interagency export licensing system originally envisioned when the funding
        request was first calculated. In addition, USXPORTS does not have approved
        funding to continue the program if mission goals are not met by September 30,
        2005.


USXPORTS Export Licensing Process Modernization Effort
        The USXPORTS program office approach, without the cooperation of all of the
        export licensing agencies, does not fully address overall export licensing
        processes and system inefficiencies, identify interagency system requirements,
        or streamline the Federal export licensing process. In its attempt to modernize
        the entire Federal export control process, USXPORTS has given priority to
        interagency modernization efforts, but not to modernizing the export licensing
        process within Defense-a process that could be greatly improved through
        automation and modernization efforts. Interagency modernization objectives are
        better achieved by Commerce and State, which have been given the
        responsibility to administer and approve dual-use and munitions export licenses.
        Defense’s efforts to work with the licensing agencies to improve the Federal


                                              29
    export licensing system interfaces are worth continuing. However, Defense
    needs to focus its modernization efforts on the problems of disseminating export
    license applications and associated technical documentation to organizations
    within Defense.


Management Comments on the Finding and OIG Response
    Defense Comments. The Office of the Under Secretary of Defense (Policy)
    responded to the draft report for the Secretary of Defense. The Acting Deputy
    Under Secretary of Defense (Policy Integration) stated that the Office of the
    Under Secretary believed that the report should be more positive towards the
    USXPORTS program. The Acting Deputy Under Secretary stated that although
    the USXPORTS Integrated Program Management Office lacks the legal or
    regulatory authority to mandate full participation from program partners, it has
    established joint goals with Commerce and, more recently, with State to
    accomplish much in the areas of potential business process improvements,
    interface with industry, information assurance alternatives, and common data
    repositories. He stated that USXPORTS has broken new ground in the areas of
    classification domains and PKI. The Deputy Under Secretary stated that not all
    of USXPORTS’ accomplishments are called out in the report and that the
    overall tone of the draft report leaves the reader with the impression that the
    program will not accomplish all of its goals, which is not the opinion of the
    program oversight authorities including the Office of the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence) and the
    Interagency Steering Committee.

    Interagency OIG Response. As a result of management comments, we revised
    the USXPORTS Interagency Program Management Office finding where
    appropriate in the final report to include additional USXPORTS program
    accomplishments.


Recommendations, Management Comments, and OIG
  Response
    C. We recommend that the Secretary of Defense:

          1. Continue to work with Commerce, Energy, and State to improve
    and better integrate Defense’s role in the review and processing of dual-use
    and munitions export licenses; and

            2. Redirect the primary focus of the U.S. Export Systems
    Interagency Program Management Office to automating, integrating, and
    modernizing Defense’s processes for disseminating and reviewing export
    license applications and associated technical documentation referred to
    Defense by Commerce and State.



                                       30
Defense Comments. The Acting Deputy Under Secretary of Defense (Policy
Integration) did not respond to Recommendation C.1. and nonconcurred with
Recommendation C.2., stating that the recommendation is contrary to the
precepts of both the Clinger-Cohen Act and applicable Defense regulations.
The Deputy Under Secretary believed that implementation of the
recommendation will result in the USXPORTS program losing the opportunity
to leverage its accomplishments into future interagency cooperation.

Interagency OIG Response. The intention of Recommendations C.1. and C.2.
is not to end the cooperation between Commerce, Defense, and State, but rather
to ensure Defense resources are focused on resolving export license application
review process inefficiencies, such as disseminating license applications and
associated technical documentation to widely dispersed geographic locations,
that will provide benefits for Defense organizations. To develop an efficient
export license application review system within the precepts of the Clinger-
Cohen Act, Defense must cooperate with Commerce, State and industry on
methods to receive and transmit data. However, Defense’s primary focus
should be on the dissemination of data among Defense organizations. We
request the Acting Deputy Under Secretary provide comments to
Recommendation C.1. and provide specific plans for automating, integrating,
and modernizing Defense’s processes for disseminating and reviewing export
license applications and associated technical documentation, and the dates that
the plans will be implemented.




                                  31
Appendix A. Scope and Methodology

Interagency Scope
    The interagency review focused on the development and implementation of
    Commerce, Defense, Energy, State, and the Treasury agency-specific automated
    systems that support the export license application processes for dual-use and
    munitions items and the interoperability of those systems. We also reviewed the
    efforts of USXPORTS to develop and implement an automated interagency
    export licensing system. In addition, the review focused on departmental
    guidance, executive orders, other applicable laws, and regulations regarding
    automation initiatives. The OIG review teams contacted responsible personnel
    in their respective agencies and in other Federal agencies and governmental
    organizations, as appropriate. The participating OIG review teams were from
    Commerce, Defense, Energy, State, and the Treasury.

    The interagency review did not analyze the feasibility of a single integrated
    licensing system for both dual-use and munitions export license applications.
    We only reviewed the challenges facing current modernization efforts.


Interagency Methodology
    Review Approach. To coordinate the review of interagency automation issues
    and determine the work to be performed by each OIG team, the five OIGs
    formed an interagency working group and held monthly meetings while
    conducting agency-specific reviews. The interagency review was conducted
    from April 2001 through February 2002. We performed work in the following
    areas:

           •   reviewed and evaluated connectivity among agency-specific
               automated export licensing systems with representatives from the
               OIGs of Commerce, Defense, Energy, State, and the Treasury;

           •   reviewed and evaluated USXPORTS efforts to modernize the export
               control process;

           •   interviewed personnel and contractors at Commerce’s Bureau of
               Export Administration; USXPORTS Interagency Program
               Management Office; Office of Management and Budget, Office of
               Information and Regulatory Affairs; Office of the Assistant Secretary
               of Defense for Command, Control, Communications, and
               Intelligence, Deputy Chief Information Officer, and the Designated
               Approving Authority; Deputy Under Secretary of Defense (Policy
               Integration) as well as Director, Policy Automation; Defense
               Technology Security Administration; State’s Bureau of Political and


                                       32
               Military Affairs, Office of Defense Trade Controls; Energy’s Office
               of Export Control Policy and Cooperation; the Treasury’s Customs
               Service; and Chief Information Officer Liaison, Chief Information
               Officer Council;

           •   reviewed and evaluated individual agency guidance on processing and
               reviewing export license applications, General Accounting Office
               reports on information security and the processing of export license
               applications from February 2001 through December 2001, Office of
               Management and Budget guidance and memorandums on the
               management of Federal information resources, USXPORTS
               documentation including their acquisition strategy, business plan, and
               preliminary economic analysis, and congressional guidance on
               implementing and managing system development efforts; and

           •   attended demonstrations to evaluate processes and information
               systems used for reviewing dual-use and munitions export license
               applications, and assessed whether ongoing and planned upgrades to
               the licensing systems are being carried out in a cost-effective manner.


Agency-Specific Methodology
    Appendixes C through G contain agency-specific inputs on the methodology
    used for each respective agency’s review. Analysis and information gathered
    during agency-specific OIG reviews were also used to produce the interagency
    review.

    Commerce OIG Methodology. The Commerce OIG goal was to assess
    Commerce efforts to modernize its export licensing system for dual-use
    commodities. In particular, the Commerce OIG sought to determine whether
    the Bureau of Export Administration adequately planned for the redesign effort
    including appropriate interagency consultations; had an infrastructure in place to
    monitor project costs, schedule, and deliverables; developed a system design
    schedule that was realistic, achievable, and being met; and, implemented
    previous OIG recommendations pertaining to the replacement of the export
    licensing system and other automation issues.

    The review methodology included interviews with personnel and contractors at
    the Bureau of Export Administration; Office of Management and Budget;
    General Accounting Office; Commerce’s Chief Information Officer; Office of
    Budget and Office of Secretary; officials from the Departments of Defense,
    Energy, Justice, State and the Treasury; the USXPORTS Interagency Program
    Management Office; and the Information Technology Enterprise Architecture
    Affinity Group. The Commerce OIG reviewed ECASS 2000+ and
    USXPORTS documents available prior to September 30, 2001. In addition, the
    Commerce OIG reviewed departmental, General Accounting Office, Office of
    Management and Budget, and congressional guidance for implementing and
    managing system development efforts.



                                        33
Defense OIG Methodology. The Defense OIG goal was to assess the policies
and procedures for development and implementation of automation initiatives
for USXPORTS. The Defense OIG researched the Defense process for
disseminating export licenses to technical reviewers. In addition, the Defense
OIG reviewed the systems used in the business process for export licenses, the
procedures used by the Military Department commands to further disseminate
the license applications to technical experts when necessary, and the Defense
and Military Department use of FORDTIS/TPS.

The review methodology included interviews with personnel at the Deputy
Under Secretary of Defense (Policy Integration); the Joint Chiefs of Staff; the
Defense Intelligence Agency, Deputy Chief Information Officer, the Defense
Technology Security Administration; USXPORTS Interagency Program
Management Office; the U.S. Army Security Assistance Command; the Navy
International Programs Office; the International Affairs Division, Secretary of
the Air Force; the Army Aviation and Missile Command; the Naval Air
Systems Command; and the Anteon Corporation.

Energy OIG Methodology. The Energy OIG goal was to assess the policies
and the procedures for development and implementation of automation
initiatives for USXPORTS. The Energy OIG reviewed the adequacy of the
current system that Energy used for export license processing and determined
the age and viability of Energy’s system. In addition, Energy OIG determined
requirements that included the required information assurance standards for
Energy and interagency exchange of export data, and determined whether
Energy had programmed funds to operate and maintain a Federal licensing
system for FY 2004 and the out years.

The review methodology included interviews with officials from the
Headquarters Office of Export Control Policy and Cooperation; Energy
contractor officials from Los Alamos National Laboratory, New Mexico;
Lawrence Livermore National Laboratory, California; and the University of
New Mexico regarding export control database concerns. The Energy OIG
collected pertinent data from Federal and contractor personnel affiliated with the
Departments of Commerce, Defense, State, the Treasury, and the CIA.

State OIG Methodology. The State OIG goal was to assess the policies and
procedures for development and implementation of the automation initiatives for
USXPORTS. The State OIG researched laws and Federal guidance to identify
applicable criteria for managing and ensuring security of information
technology. In addition, State OIG evaluated the processes and information
systems used for reviewing munitions export license applications, determined
whether licensing systems comply with Federal and departmental security
assurance requirements, and assessed whether ongoing and planned upgrades to
the licensing systems were being carried out in a cost-effective manner.

The review methodology included interviews with personnel from State’s Office
of Defense Trade Controls, Bureau of Nonproliferation, Bureau of Political and
Military Affairs, Bureau of Verification and Compliance, and Chief Information
Officer. In addition, State OIG interviewed personnel from the Defense Threat
Security Administration; the Customs Service (the Treasury); USXPORTS


                                    34
Interagency Program Management Office; and the General Accounting Office.
The State OIG attended presentations at Commerce, Defense, Energy, and the
Customs Service to learn about issues and initiatives underway to improve
information technology and streamline portions of the export licensing process.

The Treasury OIG Methodology. The Treasury OIG goal was to assess the
policies and procedures for development and implementation of the automation
initiatives for USXPORTS. The Treasury OIG also assessed the Treasury’s role
in the approval and issuance of export licenses and the systems, both automated
and manual, used to facilitate this role, and the costs involved with operating the
systems, and whether plans exist to upgrade the systems.

The review methodology included interviews with personnel from the Customs
Service; the Office of Foreign Assets Control; the Bureau of Alcohol, Tobacco
and Firearms; and the USXPORTS Interagency Program Management Office.
The Treasury OIG attended presentations at Commerce, Defense, Energy, and
State to learn about issues and initiatives underway to improve information
technology and streamline portions of the export licensing process.




                                    35
Appendix B. Followup to Prior Interagency
            Review
    As amended, Public Law 106-65, National Defense Authorization Act for
    FY 2000, requires the OIGs to include in their annual report the status or
    disposition of recommendations made in earlier reports submitted in accordance
    with the Act. In the first year of the Act, the OIGs each conducted an audit or
    review of compliance with the deemed export licensing requirements contained
    in the Export Administration Regulations and the International Traffic in Arms
    Regulations. The results of the reviews were consolidated and reported in
    Inspector General, DoD, Report No. D-2000-109, “The Interagency Review of
    the Export Licensing Process for Foreign National Visitors,” March 2000. The
    March 2000 Interagency Review contains the complete text of each agency
    report, including recommendations in appendixes. In the second year of the
    Act, the OIGs each conducted an audit or review of the policies and procedures
    for the development, maintenance, and revision of the Commerce Control List
    and the U.S. Munitions List. The results of the reviews were consolidated and
    reported in Inspector General, DoD, Report No. D-2001-092, “The Interagency
    Review of the Commerce Control List and the U.S. Munitions List,”
    March 2001. The March 2001 Interagency Review contains the complete text
    of each agency report, including recommendations in appendixes. The
    following is the status of the recommendations made by each agency.


Department of Commerce
    Status of the Commerce OIG Report No. IPE-13744,
    “Management of the Commerce Control List and Related
    Processes Should Be Improved,” March 2001
    Recommendations for the Director, Bureau of Export Administration

    Recommendation: Review the Bureau of Export Administration’s internal
    clearance process and procedures for implementing agreed-upon
    multilateral changes to the Commerce Control List and work with the other
    licensing agencies, including Defense, Energy, and State, to determine
    whether the current process for updating the Commerce Control List can be
    adjusted in order to publish regulations more expeditiously. In addition,
    immediately implement the regulatory changes resulting from the May 1999
    Nuclear Suppliers Group plenary session and the October 1999 Missile
    Technology Control Regime plenary session.

           Status: Open. The Bureau of Export Administration began an
    evaluation of the current regulatory review process in September 2001 to
    determine whether it could be adjusted and expected to complete this review by
    November 2001. The Bureau of Export Administration also indicated that
    regular meetings are held by the Deputy Assistant Secretary for Export


                                      36
Administration with the Director of the Regulatory Policy Division, as well as
staff from other Bureau of Export Administration program offices, as needed, to
discuss the status of all pending regulations, prioritize them, and make
regulatory changes in a more timely manner. However, the Bureau of Export
Administration’s July 2001 action plan pointed out that the primary reason for
delays in drafting and implementing regulations is the shortage of regulatory
personnel in the Bureau of Export Administration and other agencies.
Consequently, the Bureau of Export Administration requested funding in both its
fiscal year 2002 and 2003 budget submissions for additional regulatory staff.
While we recognize the Bureau of Export Administration’s need to hire
additional engineering and regulatory staff to offset its shortage of technical and
analytical capacity, we believe that the Bureau of Export Administration can
take action on this recommendation with its current staff level.

With regard to the May 1999 Nuclear Suppliers Group regulatory changes, the
Bureau of Export Administration informed us that a draft regulation would be
sent out for interagency review during the week of September 24, 2001,
requesting reviewing agencies to provide comments and clearance within two
weeks. In addition, the Bureau of Export Administration reported that the draft
regulation implementing the October 1999 Missile Technology Control Regime
plenary regulation changes was sent out for interagency review on August 9,
2001. According to the Bureau of Export Administration, Energy and State
have cleared the regulation, while the Department of Defense is still reviewing
it. Although the Bureau of Export Administration’s actions partially meet the
intent of our recommendation, this recommendation will remain open until the
Bureau of Export Administration completes its evaluation of the current
regulatory review process and publishes the 1999 Nuclear Suppliers Group and
the Missile Technology Control Regime regulatory changes in the Federal
Register.

Recommendation: In conjunction with Defense and State, review the
national security controlled items that have been decontrolled by the
Wassenaar Arrangement to determine (a) whether the national security
controls for these items should be removed and (b) whether these items
should continue to be controlled for foreign policy reasons under the
Commerce Control List.

        Status: Open. As of September 30, 2001, the Bureau of Export
Administration has taken no action on this recommendation since the publication
of our March 2001 report. However, the Bureau of Export Administration did
inform us that it will begin discussions with Defense and State in October 2001
to determine the appropriate controls for the four Export Control Classification
Numbers currently subject to unilateral national security controls. The Bureau
of Export Administration believes that, at a minimum, the existing foreign
policy (antiterrorism) controls should be continued on these items. The Bureau
of Export Administration’s actions do not meet the intent of our
recommendation. Until a review of these items has been completed, this
recommendation will remain open.

Recommendation: Convene a working group of business and government
representatives, under the auspices of the Regulations and Procedures


                                    37
Technical Advisory Committee, to improve the user-friendliness of the
Commerce Control List. In addition, work with State to (1) eliminate the
current overlap of items and make sure that it is very clear on which list an
item falls, and (2) create a user-friendly consolidated index of the items on
the Commerce Control List and the U.S. Munitions List. To ensure that
this happens, work with the applicable congressional committees, that are
considering new legislation for dual-use exports, to ensure that any new
Export Administration Act or similar legislation includes a requirement that
the agencies eliminate the overlap and create such an index for both the
Commerce Control List and the U.S. Munitions List. Finally, ensure that
the annual scrubs of the Commerce Control List also take into account any
corrections or changes that would help to make the Commerce Control List
easier for exporters to use.

        Status: Open. The Regulations and Procedures Technical Advisory
Committee has formed a working group to suggest improvements to the
Commerce Control List. According to the committee’s chair, it is likely that the
working group will present its suggested changes to the Bureau of Export
Administration at the Advisory Committee’s next meeting, scheduled for early
December 2001. With regard to our recommendation that the Bureau of Export
Administration work with State to eliminate the overlap of items on both the
Commerce Control List and the U.S. Munitions List and create a consolidated
index of items on both lists, the Bureau of Export Administration and State are
in the process of reviewing Defense’s first set of changes to the U.S. Munitions
List resulting from the five-part “scrub” of the list as part of the Defense Trade
Security Initiative Number 17. While one of our goals of this initiative is the
identification of U.S. Munitions List items that are more appropriately
controlled by the Commerce Control List, the initiative does not specifically
address the overlap problem we identified. Therefore, we are not confident that
relying on Defense’s effort will resolve the overlap issue. In addition, the
Bureau of Export Administration contends that it would be premature to create a
consolidated index until there is interagency agreement on the first set of
changes to the U.S. Munitions List. We see no reason to delay the start of work
on the index. Any changes made as a result of the 5-year Defense Trade
Security Initiative Number 17 effort can be inserted into the index after
interagency agreement on the changes is reached. Thus we urge the Bureau of
Export Administration to begin work with State immediately on the index and to
eliminate the overlap. Overall, the Bureau of Export Administration’s actions
taken to date do not meet the intent of our recommendation.

Recommendation: Review Export Administration priorities and staffing
levels and make adjustments to improve the Bureau of Export
Administration’s timeliness on commodity classification requests.

       Status: Open. The Bureau of Export Administration believes that
additional technical personnel are needed to improve the timeliness on
commodity classification requests. As a result, the Bureau of Export
Administration has made funding for additional technical experts one of its
highest priorities for fiscal years 2002 and 2003. We verified that the Bureau of
Export Administration requested additional funding for hiring technical
personnel in both its 2002 and 2003 budget requests. While the Bureau of


                                    38
Export Administration’s action partially meets the intent of our
recommendation, this recommendation will remain open until the Bureau of
Export Administration implements the necessary actions to improve its
timeliness on commodity classifications.

Recommendation: Program the Export Control Automated Support System
to allow for the “hold without action” feature to help Export
Administration managers keep better track of licensing officers
performance on commodity classifications.

       Status: Open. The Bureau of Export Administration informed us that it
intends to implement this recommendation as part of its Export Control
Automated Support System redesign project. However, until the Bureau of
Export Administration makes a final decision on the commodity classification
system requirements as a part of its redesign efforts, this recommendation will
remain open.

Recommendation: Develop policies and procedures for the intra-agency
review of commodity classification requests.

        Status: Closed. In its July 2001 action plan, the Bureau of Export
Administration stated that it does not believe that developing additional policies
and procedures for intra-Bureau of Export Administration referral of commodity
classifications is necessary. However, on June 4, 2001, the Bureau of Export
Administration’s Director of Exporter Services sent an e-mail message to all
Export Administration Office Directors instructing them to remind their
licensing officers that if they need to seek advice about a commodity
classification from another office or have been requested to provide input on a
commodity classification to another division, they should do so promptly and
complete the action within three working days. The Bureau of Export
Administration’s actions meet the intent of our recommendation.

Recommendation: Request that the National Security Council form a
working group (including Defense and State) to (a) review the 1996
commodity classification guidance, (b) revise it if necessary, and (c) develop
specific criteria and procedures to ensure that the referral of munitions-
related commodity classifications to Defense and State is handled in a
timely, transparent, and appropriate manner by all agencies involved.

         Status: Open. The Bureau of Export Administration recently notified
us that it plans to work with the National Security Council and the other
agencies to review the 1996 commodity classification guidance once the night
vision jurisdiction issue is resolved. In addition, the Bureau of Export
Administration informed us that the current Administration has reached internal
agreement on the principles that would govern Defense’s review of commodity
classification requests. We also point out that the proposed Export
Administration Act of 2001 (S. 149) would require Commerce, by law for the
first time, to notify Defense of all commodity classification requests it receives.
We are pleased that high-level discussions are taking place about the review of
commodity classifications. As such, the Bureau of Export Administration’s



                                     39
        actions partially meet the intent of our recommendation. This recommendation
        will remain open until the National Security Council/Commerce/Defense/State
        review of the 1996 commodity classification guidance is complete.

        Recommendation: Provide State with a copy of the final determinations for
        any commodity classification it reviews.

               Status: Open. The Bureau of Export Administration informed us that
        the procedures for sending completed commodity classifications to the State
        Department will be completed by October 15, 2001. This recommendation will
        remain open until the Bureau of Export Administration begins to provide State
        with a copy of the final commodity classification determinations it reviews.

        Recommendation: Review Export Administration priorities and staffing
        levels, as appropriate, and make adjustments to improve the Bureau of
        Export Administration’s timeliness on commodity jurisdiction determination
        requests.

               Status: Open. The Bureau of Export Administration believes that
        additional technical personnel are needed to improve the timeliness on
        commodity jurisdiction requests. As a result, the Bureau of Export
        Administration has made funding for additional technical experts one of its
        highest priorities for fiscal years 2002 and 2003. We verified that the Bureau of
        Export Administration had requested additional funding for hiring technical
        personnel in both its 2002 and 2003 budget requests. While the Bureau of
        Export Administration’s actions partially meet the intent of our
        recommendation, this recommendation will remain open until the Bureau of
        Export Administration implements the necessary actions to improve its
        timeliness on commodity jurisdiction requests.

        Recommendation: Work with State’s Office of Defense Trade Controls and
        Defense, or include as part of the current system redesign efforts, an
        automated system for referring and processing commodity jurisdiction
        cases, similar to the current automated licensing system.
               Status: Open. The Bureau of Export Administration agreed to work
        with State and Defense to have this issue addressed as part of Defense’s
        U.S. Exports Interagency Program Management Office initiative.18 To that end,
        the Bureau of Export Administration raised the issue with State and Defense at
        the September 19, 2001, quarterly interagency export licensing meeting. In
        addition, the Bureau of Export Administration stated that it would raise this
        issue with the appropriate officials at State and Defense now that the new
        management teams are in place at those departments. Finally, the Bureau of
        Export Administration pointed out that, ultimately, State has to agree to
        electronic processing of commodity jurisdiction requests, and it has not yet done

18
 In May 2000, Defense announced the start of a new interagency automation effort to improve the U.S.
 Government’s export license review process. The U.S. Exports Interagency Program Management
 Office was established to oversee this initiative. At this time, State has not officially agreed to
 participate in this initiative.



                                                 40
so. We request that the Bureau of Export Administration continue to press State
and Defense on this issue. Until a definitive decision to automate the
commodity jurisdiction process, this recommendation will remain open.

Recommendation: Request that State’s Office of Defense Trade Controls
consult with the Bureau of Export Administration and Defense and all
commodity jurisdiction requests and cease its practice of making some
commodity jurisdiction determinations without first consulting with those
agencies, as required by the 1996 National Security Council guidance.

       Status: Open. The Bureau of Export Administration stated that it
would make this request to State by October 1, 2001, now that State’s new
management team is in place. Until that request is made, this recommendation
will remain open.

Recommendation: Request that the National Security Council provide
guidance on how State’s Office of Defense Trade Controls, Defense, and the
Bureau of Export Administration should process governmental
jurisdictions, similar to the guidance it issued for the commodity
jurisdiction process.

        Status: Open. The Bureau of Export Administration has taken no
action on this recommendation since the publication of our March 2001 report.
The Bureau of Export Administration informed us that it will discuss this
recommendation with the National Security Council, Defense, and State after
the night vision jurisdiction review is resolved and the 1996 commodity
classification guidance is reviewed. Until the Bureau of Export Administration
raises this issue with the National Security Council, at a minimum, or until
some guidance on processing government jurisdictions is provided to the
licensing agencies, this recommendation will remain open.

Recommendation: Submit a formal written request to the new head of the
National Security Council asking for early resolution of the jurisdictional
issues regarding night vision equipment and technology.
       Status: Open. The Bureau of Export Administration has not formally
requested the National Security Council to resolve the jurisdictional issues
regarding night vision equipment and technology since issuance of our
March 2001 report. However, the Bureau of Export Administration recently
informed us that the National Security Council would begin a review of this
matter in October 2001. Until the review is completed, this recommendation
will remain open.

Recommendation: Submit a formal written request to the new head of the
National Security Council asking for early resolution of the jurisdictional
issues regarding the 16 space-qualified items.

        Status: Closed. The National Security Council and the Departments of
Commerce, Defense, and State recently completed a review of licensing
jurisdiction for space-qualified items. The Departments have posted charts on
their respective web sites detailing the resolution of this issue. According to the


                                    41
Bureau of Export Administration, each agency will publish rules shortly in the
Federal Register amending their regulations, where appropriate, and specifying
the relevant details and technical parameters associated with export control of
these items. Of the 16 space-qualified items in dispute, 6 have been determined
to fall strictly under the U.S. Munitions List; 4 have been determined to fall
strictly under the Commerce Control List; and 4 have been determined to fall
under both the Commerce Control List and the U.S. Munitions List depending
on certain technical parameters. The remaining two categories were
decontrolled by the Wassenaar Arrangement in December 1998. The deletions
were made to the Commerce Control List in mid-1999, but new categories were
created to unilaterally control these items on the Commerce Control List for
anti-terrorism reasons. The Bureau of Export Administration’s actions meet the
intent of our recommendation.

Status of the Commerce OIG Report No. IPE-12454-1,
“Improvements Are Needed in Programs Designed to Protect
Against the Transfer of Sensitive Technologies to Countries of
Concern,” March 2000
Recommendations for the Director, Bureau of Export Administration

Recommendation: Aggressively pursue an outreach program to high
technology companies and industry associations explaining and seeking
compliance with the deemed export control requirements.

       Status: Closed. Within the Bureau of Export Administration, the
Office of Exporter Services has the lead responsibility for educating the business
community and U.S. government agencies about the “deemed export”
provisions of the Export Administration Regulations. The Bureau of Export
Administration informed the Commerce OIG that the Office of Exporter
Services included the subject of deemed exports in its 2-day export control
seminars, which were held monthly in cities across the United States. Plenary
sessions were also conducted on deemed exports at the Bureau of Export
Administration annual Update Conference in July 2000, which the Bureau of
Export Administration estimated included 800 industry representatives. In
addition, the Bureau of Export Administration has kept industry informed of
deemed exports through its various Technical Advisory Committee meetings.
Furthermore, the Commerce OIG noted that the Bureau of Export
Administration senior managers also periodically include information on deemed
exports in speeches given at industry events.

In addition to the outreach activities, the Office of Export Enforcement, through
its Project Outreach program, meets with employees of businesses, officials of
other Federal agencies, and university officials to make them aware of their
export control compliance responsibilities under the Export Administration
Regulations. According to Office of Export Enforcement officials, the guidance
includes making the individuals aware of the deemed export provisions of the
Export Administration Regulations.

During FY 2000, the Office of Export Enforcement reported that it conducted
1,033 Project Outreach visits and 60 public relations appearances (such as trade


                                    42
association meetings or Office of Export Enforcement Business Executive’s
Enforcement Training meetings). The Office of Export Enforcement officials
informed the Commerce OIG that because many of the dual-use technologies
and commodities controlled under the Export Administration Regulations are
high technology, a significant proportion of the Office of Export Enforcement
contacts with the business community are with high-technology firms. In
addition, Office of Export Enforcement special agents have visited numerous
research institutes and universities that employ or sponsor foreign nationals.
The Bureau of Export Administration actions meet the intent of our
recommendation.

Recommendation: Develop a link on the Bureau of Export Administration
main Internet web site specifically dedicated to deemed exports as was done
for the Chemical Weapons program.

        Status: Closed. On March 15, 2000, a deemed export web site link
was established on the main the Bureau of Export Administration web site. This
web site included a comprehensive list of questions and answers that covered
what the deemed export rule is, who is considered a foreign national, what the
licensing requirements for foreign nationals are, and what technologies are
subject to control. The Bureau of Export Administration actions meet the intent
of our OIG recommendation.

Recommendation: Expand outreach efforts with Federal agencies
(including Commerce, Defense, Energy, and Transportation, and the
National Aeronautics and Space Administration) to ensure that these
agencies fully understand the deemed export requirements and to help them
determine whether foreign visitors at their facilities and/or laboratories
require a deemed export license. At a minimum, the Bureau of Export
Administration should:

(a) Respond to the Energy’s November 1999 request to review and concur
with the informal deemed export guidance that the Bureau of Export
Administration provided to Energy officials at a June 1999 meeting.
        Status: Closed. Although the Bureau of Export Administration has still
not formally responded to the Energy’s November 1999 request to review and
concur with the informal deemed export guidance that the Bureau of Export
Administration provided to Energy officials at a June 1999 meeting, the
Commerce OIG has acknowledged that the Bureau of Export Administration is
now engaged in a continuing dialogue with Energy on various export control
issues, including deemed export controls. The Bureau of Export Administration
actions meet the intent of our recommendation.

(b) Follow up with the Director of the National Institute of Standards and
Technology on the three cases we identified to determine whether deemed
export licenses should have been obtained and assist the National Institute
of Standards and Technology in developing an export compliance program.




                                   43
        Status: Closed. According to the Bureau of Export Administration,
licensing officials held consultations with the National Institute of Standards and
Technology and determined that the three cases in question were instances of
“fundamental research” and, as such, no deemed export license was required.
The Bureau of Export Administration actions meet the intent of our
recommendation.

(c) Engage in discussions with the National Oceanic and Atmospheric
Administration Administrator, as well as the Assistant Administrators of its
line offices, and in particular the National Environmental Satellite, Data,
and Information Service, to discuss deemed export regulations and their
potential applicability to the National Oceanic and Atmospheric
Administration.

       Status: Open. During fiscal year 2000, officials of the Bureau of
Export Administration’s Office of Export Enforcement visited the National
Oceanic and Atmospheric Administration’s facility in Boulder, Colorado, and
met with attorneys in its Office of Chief Counsel. According to Office of
Export Enforcement officials, the presentation in Boulder was focused primarily
on deemed exports. Furthermore, on May 31, 2001, the Under Secretary for
Export Administration sent a memorandum to the National Oceanic and
Atmospheric Administration’s Acting Administrator offering to brief National
Oceanic and Atmospheric Administration personnel on deemed exports. While
the Bureau of Export Administration has not received a response from the
National Oceanic and Atmospheric Administration to date, the Bureau of Export
Administration’s action plan stated that it would follow-up with the National
Oceanic and Atmospheric Administration by October 1, 2001. While the
Bureau of Export Administration’s actions partially meet the intent of our
recommendation, this recommendation will remain open until the Bureau of
Export Administration meets with the National Oceanic and Atmospheric
Administration.

(d) Meet with Department of Transportation officials to ensure their
understanding and compliance with deemed export license requirements.
        Status: Closed. According to the Bureau of Export Administration,
representatives from Export Administration and Office of Chief Counsel met
with legal staff from the Department of Transportation’s Federal Aviation
Administration in June 2000. The Bureau of Export Administration informed us
that they provided an extensive briefing on the regulatory and procedural
requirements of the deemed export program. In addition to the Federal Aviation
Administration, the Bureau of Export Administration reported that it contacted
officials at the Department of Transportation and provided them with copies of
the regulation and web site material. The Bureau of Export Administration
actions meet the intent of our recommendation.

Despite a lack of action on some of the Commerce OIG recommendations, the
Bureau of Export Administration appears to have made more concerted effort
since issuance of our March 2000 report to ensure that other Federal agencies
have a clear and uniform understanding of the licensing requirements for
transfer of controlled technology to foreign nationals. For example, the Bureau


                                    44
of Export Administration reported that the Office of Export Enforcement
conducted 350 liaison meetings with other Federal agencies during FY 2000.
The Bureau of Export Administration also informed the Commerce OIG that it
includes its sister agencies as both guests and instructors in seminar programs in
an effort to educate agency officials on the Bureau of Export Administration
responsibilities in the export control arena, including deemed exports.
Furthermore, the Bureau of Export Administration provided the Commerce OIG
with the following information concerning some of its increased outreach
activities to other Federal agencies regarding deemed exports.

   •   Department of Energy. In April 2000, the Bureau of Export
       Administration provided speakers and training material on the subject of
       deemed exports at the Energy Department’s Export Control Coordinators
       Organization conference. The Export Control Coordinators Office is the
       coordinating body for those who deal with export controls at the various
       Energy laboratories. Furthermore, as a result of a recent administrative
       settlement with Energy’s National Laboratories related to alleged
       violations of the Export Administration Regulations, the Bureau of
       Export Administration is currently hosting officials from Energy.
       During their stay in the Bureau of Export Administration, Energy
       personnel gain comprehensive insight into the Bureau of Export
       Administration priorities regarding licensing and enforcement concerns.
       Furthermore, in March 2001, the Office of Export Enforcement hosted
       an Export Control Seminar for Energy personnel at the Los Alamos,
       New Mexico, and Lawrence Livermore, California, National
       Laboratories. In addition to traditional export control concerns, the
       Director of the Office of Export Enforcement delivered a presentation on
       compliance with deemed exports to Energy personnel. Since
       March 2000, Office of Export Enforcement special agents have also
       participated in Project Outreach visits and the Bureau of Export
       Administration Export Seminars at Energy facilities that include the
       National Renewable Energy Laboratory, the Thomas Jefferson National
       Accelerator Laboratory, and the Oak Ridge National Laboratory.
   •   Department of Defense. In October 2000, the Office of Export
       Enforcement made a presentation at the Defense Logistics Agency annual
       agent training in Battle Creek, Michigan, during which both deemed
       exports and “traditional” export control matters were discussed. The
       Office of Export Enforcement is also involved in interagency working
       groups in Milwaukee, Wisconsin, and Detroit, Michigan, which focused
       on topics such as deemed exports.

   •   National Aeronautics and Space Administration. According to the
       Office of Export Enforcement, several of the National Aeronautics and
       Space Administration’s operating units throughout the United States have
       been visited by Office of Export Enforcement special agents in the last
       3 years. Specifically, the Office of Export Enforcement reported that it
       has visited the National Aeronautics and Space Administration, Dryden
       Flight Research Center, California, Johnson Space Center, Texas,
       Langley Research Center, Virginia, and Jet Propulsion Laboratory,
       California. According to the Office of Export Enforcement, visits


                                    45
       focused primarily on the deemed export of technology controlled under
       the Export Administration Regulations to visiting foreign scientists. The
       Office of Export Enforcement special agents have also taken part in
       annual National Aeronautics and Space Administration training at its
       Ames Research Center.

Recommendation: Clarify the term “fundamental research” in the deemed
export regulations to leave less room for interpretation and confusion on the
part of the scientific community.

        Status: Open. While the Bureau of Export Administration generally
concurred with this recommendation in its response to our draft report, in its
July 2001 action plan, the Bureau of Export Administration stated that there is
no indication that the definition of “fundamental research” is misused or
misunderstood. The action plan also reiterated the Bureau of Export
Administration’s position that the Export Administration Regulations adequately
defines the term fundamental research in sections 734.8 and 734.11, as well as
in a series of questions and answers in sections A through D of Supplement 1 to
Part 734. In addition, the Bureau of Export Administration stated that the term
fundamental research is further clarified in the Frequently Asked Questions
section on the Bureau of Export Administration’s web site. Again, while we
believe these references are all valuable tools for exporters, the explanation
provided for fundamental research in all three of these resources is essentially a
restatement of how the Export Administration Regulations defines this term. As
such, we still maintain that U.S. entities could misuse this exemption by broadly
defining fundamental research in order not to comply with deemed export
controls. Therefore, we do not believe that the Bureau of Export
Administration’s actions fully meet the intent of our recommendation.

Recommendation: Work with the National Security Council to determine
what is the intent of the deemed export control policy and to ensure that the
implementing regulations are clear in order to lessen the threat of foreign
nationals obtaining proscribed sensitive U.S. technology inappropriately.
        Status: Open. On March 14, 2000, in response to our draft report and
just before issuance of the final report, the former Assistant Secretary for
Export Administration sent a letter to the former Special Assistant to the
President and Senior Director for Nonproliferation and Export Controls at the
National Security Council requesting that it convene a working group of
representatives from the Departments of Commerce, Defense, Energy, Justice,
and State, and the Office of Management and Budget to review U.S. policy
regarding deemed export technology transfers. While the Bureau of Export
Administration has not followed up with the National Security Council to
determine the status of its request, it has recently established a deemed export
task force to review the current deemed export policy and process. According
to the Bureau of Export Administration, the task force will consider input from
other departments and industry. The Bureau of Export Administration indicated
that once the task force completes its review, it would consult with the National
Security Council on any possible revisions to the deemed export policy and
process. The Bureau of Export Administration expects the task force to



                                    46
complete its review in early 2002. We look forward to reviewing the task
force’s conclusions on deemed export controls. However, until the task force
completes its review, this recommendation will remain open.

Recommendation: Track the number of visa application cables reviewed by
the Director of the Office of Enforcement Analysis’ Export License Review
and Compliance Division, as well as those that are distributed to the
analysts for an in-depth review.

        Status: Closed. The Bureau of Export Administration estimates that the
Director of the Office of Enforcement Analysis Export License Review and
Compliance Division reviews between 15,000 and 20,000 visa application cables
annually. A count of the visa applications that the Director believes need
further review by the Office of Enforcement Analysis analysts are recorded on
an electronic log, which is updated on a daily or weekly basis, as needed. The
Bureau of Export Administration actions meet the intent of our recommendation.

Recommendation: For the Visa Application Review Program, assess
whether the Office of Enforcement Analysis should continue to review the
current level of visa application cables.

       Status: Closed. According to the Bureau of Export Administration
estimates, the Director of the Office of Enforcement Analysis Export License
Review and Compliance Division reviewed between 15,000 and 20,000 of
the 47,000 visa application cables received from the Department of State
Telecommunications Center in FY 1999. The Bureau of Export Administration
managers reexamined the cable profile for visa application cables to determine
whether they could reduce the number of cables reviewed. That review
determined that both the number and type of cables being reviewed by the
Office of Enforcement Analysis is appropriate given current resource levels.
Therefore, the Bureau of Export Administration believes there is no need to
decrease the number of visa application cables that it reviews annually. The
Bureau of Export Administration actions meet the intent of our recommendation.
Recommendation: Work with State to have a worldwide cable issued to
reiterate the need for complete information in the visa application cables,
including specific information for all stops on a visa applicant’s proposed
trip to the United States.

        Status: Closed. In our March 2001 follow-up report, we reported that
the Office of Enforcement Analysis sent a letter to the State Department in
July 2000, requesting that a worldwide cable be issued reiterating the need for
complete information in the visa application cables. However, the Director of
the Office of Enforcement Analysis’ Export License Review and Compliance
Division was not sure whether such a cable was ever issued. While the Office
of Enforcement Analysis saw some improvement in the visa application cables,
the Director felt that still more information would be helpful. Therefore, we
requested that the Bureau of Export Administration again contact State to put out
better guidance on what information is needed in the visa application cables.




                                   47
On June 25, 2001, the Director of the Office of Enforcement Analysis’ Export
License Review and Compliance Division met with officials in the visa office at
the State Department to discuss the need for additional information in the visa
application cables, such as what individuals, companies, or institutions will be
visited during each stop listed on the applicant’s itinerary. Since the meeting,
Office of Enforcement Analysis analysts have noticed an improvement in the
information provided on the visa application cables. The Bureau of Export
Administration actions meet the intent of our recommendation.

Recommendation: Supplement the Visa Application Review Program
training materials with additional reference information, to include
checklists for the review process that are customized to the country of the
visitor and type of place (company or Government facility) to be visited in
the United States.

        Status: Closed. The Director of the Office of Enforcement Analysis
Export License Review and Compliance Division created a checklist that
identifies which resources are to be checked by the analysts, based on the
country of the visitor and the type of place to be visited in the United States.
This checklist was disseminated to the analysts of the Office of Enforcement
Analysis in July 2000. In addition, training and informational materials were
subjected to a review to ensure continued applicability and usefulness. Finally,
the Director of the Export License Review and Compliance Division meets
regularly with staff members to ensure that all appropriate resources are being
consulted during the review of visa application cables. The Bureau of Export
Administration actions meet the intent of our recommendation.

Recommendation: Change the Office of Enforcement Analysis referral
queue in Enforce to permit statistical queries and electronic notification to
the responsible agent of a visa referral being made involving an existing
case.

        Status: Open. The Bureau of Export Administration informed us that
its current information technology priority is its Export Control Automated
Support System redesign effort. As such, other information technology
upgrades, such as changing the Office of Enforcement Analysis referral queue in
Enforce as we have recommended, are receiving a lower priority and are
effectively not being done. However, the Bureau of Export Administration is
now in the process of contracting for an investigative tracking system that is
scheduled to be operational in March 2002. This replacement system, an add-
on to the existing Enforce system, will permit statistical queries and electronic
notification to the responsible agent of a visa referral being made involving an
existing case. This recommendation will remain open until the investigative
tracking system and the changes we have recommended are operational.

Recommendation: Designate a point of contact in the Office of Export
Enforcement Intel for receipt and review of all visa referrals and have this
point of contact interface on a regular basis with an Office of Enforcement
Analysis representative to ensure that visa cases are prepared, reviewed,




                                   48
and referred to the field offices in a timely manner. Assess the effectiveness
of this new procedure as part of the periodic assessment of the overall Visa
Application Review Program.

        Status: Closed. On May 8, 2000, the Director of the Office of Export
Enforcement Intel was designated as the point of contact in the Office of Export
Enforcement for receipt and review of all visa referrals. In addition, a change
was made to the Enforce database so that incoming visa referrals from the
Office of Enforcement Analysis now appear in the Office of Export
Enforcement Intel Director’s “tickler” file, which enhances their visibility and
enables the director to review and refer the referrals to field offices more
quickly. Both the Director of the Office of Enforcement Analysis’ Export
License Review and Compliance Division and the Director of the Office of
Export Enforcement Intelligence have seen a significant improvement in the
timeliness of visa application referrals being made to Office of Export
Enforcement field offices. The Bureau of Export Administration has also
pledged to review the new procedure as part of the periodic assessment of the
overall Visa Application Review Program. The Bureau of Export
Administration actions meet the intent of our recommendation.

Recommendation: Institute a standard procedure for instances when the
Office of Export Enforcement field offices uncover potential visa fraud that
ensures that all such cases are referred to the appropriate office in the State
Department in a timely manner.

        Status: Closed. On May 12, 2000, the Office of Export Enforcement
sent procedural guidance to its field offices regarding reporting instances of
possible visa fraud to State. Under the new procedures, all instances of possible
visa fraud identified by Office of Export Enforcement field agents will be
forwarded directly to the Office of Enforcement Analysis, with an informational
copy provided to Office of Export Enforcement Intelligence at headquarters.
Upon receipt of any referrals of possible visa fraud, the Office of Enforcement
Analysis immediately sends the information to the appropriate State Office for
action. The Bureau of Export Administration actions meet the intent of our
recommendation.

Recommendation: Develop procedures within the Office of Enforcement
Analysis to ensure that visa fraud referrals are made to State within the
appropriate 10 or 15-working day suspense period.

        Status: Closed. On May 12, 2000, the Office of Enforcement Analysis
sent guidance to the analysts who review the visa application cables instructing
them that if during review of a visa application cable they discover apparent or
possible visa fraud, analysts are to report the information to State immediately
(via facsimile) and prior to further review or referral elsewhere. According to
the Director of the Office of Enforcement Analysis Export License Review and
Compliance Division, no referrals for visa fraud have been made since we made
this recommendation. The Bureau of Export Administration actions meet the
intent of our recommendation.




                                   49
        Recommendation: Stop making visa application referrals to State involving
        an entity on the Entity List.

               Status: Closed. Effective April 1, 2000, the Office of Enforcement
        Analysis stopped making visa application referrals to State for entities listed on
        the Bureau of Export Administration Entity List.19 Such referrals are now only
        made to the Office of Export Enforcement for appropriate action. The Bureau
        of Export Administration actions meet the intent of our recommendation.

        Recommendation: Assess the Visa Application Review Program
        periodically, after the refinements we are recommending and others have
        been implemented, to determine whether the resources dedicated to the
        program justify the results. To that end, the Bureau of Export
        Administration should develop performance measures to help in
        determining the program’s success.

                Status: Open. While the Bureau of Export Administration has not
        formally assessed the visa application review program as we recommended, the
        agency has taken action to conclude that the resources dedicated to the program
        do justify the results. Specifically, the Bureau of Export Administration
        measures the number of investigative referrals made to the Office of Export
        Enforcement resulting from the visa application review program. In addition,
        the outcome of those referrals is evaluated at least annually. While the Bureau
        of Export Administration admits that leads from visa referrals are not always as
        fruitful as those from other sources, there are always some significant cases
        resulting from visa referrals included in the agency’s annual report to the
        Congress. In addition, the importance of the visa application review program
        has also been highlighted since the September 11, 2001, terrorist attacks on the
        United States.

               Recommendation: Work with the State Department and other
        interested agencies to formalize the review of visa applications under the
        Visas Mantis program in a memorandum of understanding. In addition,
        encourage the State Department to establish criteria for visa denials and
        develop a process for feedback so that the participating agencies are kept
        apprised of the results of their referrals.

                Status: Closed. The State Department formalized the review of visa
        applications under the Visas Mantis program in an August 9, 2000,
        memorandum of understanding, which does contain criteria for visa denials.
        However, State has not developed a process for feedback to keep the
        participating agencies apprised of the results of the referrals. However,
        according to the Director of the Office of Enforcement Analysis Export License
        Review and Compliance Division, since the Commerce OIG report was issued,
        communication between State and the Bureau of Export Administration has
        improved significantly. In addition, meetings are being held more frequently
        among the Bureau of Export Administration, State, and other participating

19
 The Bureau of Export Administration Entity List is a published listing of foreign end users involved
 proliferation activities.



                                                   50
        agencies. However, the Bureau of Export Administration would still like to
        obtain formal feedback on referrals that it makes to State, and it has made such
        a request to State. State has not responded to the Bureau of Export
        Administration request, and it may be because the Bureau of Export
        Administration has made just a few visa application referrals to State during last
        year. Thus, creating a system to provide feedback on the disposition of those
        few referrals may not be a high priority for State at this time. The State OIG,
        which made a similar recommendation in its 2000 report, will follow-up to
        determine precisely why State has not implemented the feedback portion of the
        recommendation. The Bureau of Export Administration actions meet the intent
        of our recommendation.

        Recommendation: Ensure that all future Committee on Foreign Investment
        in the United States filings, especially those involving countries of concern,
        are forwarded to both Export Enforcement and Export Administration’s
        appropriate licensing office for review. In addition, make certain that any
        referral and recommendations are documented in the Committee on Foreign
        Investment in the United States case file.

                Status: Closed. Although the Bureau of Export Administration has not
        issued written procedures for referring Committee on Foreign Investment in the
        United States cases to Export Enforcement and Export Administration, its
        Committee on Foreign Investment in the United States database now includes
        separate line items for “To Export Enforcement” and “Export Control
        Automated Support System checked,” which prompt the analyst entering the
        data to perform these checks. In addition, since July 2001, the Office of
        Strategic Industries and Economic Security have performed its own Export
        Administration checks, because the Committee on Foreign Investment in the
        United States analyst now has access to the Export Control Automated Support
        System. According to the Bureau of Export Administration, each Committee on
        Foreign Investment in the United States file is reviewed by the Director of that
        office to ensure the Export Enforcement and Export Control Automated Support
        System checks are completed. The Bureau of Export Administration’s actions
        meet the intent of our recommendation.
        Recommendation for the National Institute of Standards and Technology

        Recommendation: Ensure that the National Institute of Standards and
        Technology Cooperative Research and Development Agreements 20 or any
        other agreements that the National Institute of Standards and Technology
        may have with the private sector include a statement specifying its private
        sector partners’ need to comply with export control laws, such as obtaining



20
 A cooperative research and development agreement, or Cooperative Research and Development
 Agreements, is one means that the U.S. Government uses for technology transfer to the private sector.
 Cooperative Research and Development Agreements are used when research being conducted jointly by
 Federal laboratories and non-Federal parties is more likely to result in the development of an invention
 and would generally increase the possibility that deemed export licenses could be required.



                                                   51
a deemed export license for their foreign national employees, if applicable,
before working on National Institute of Standards and Technology research
projects.

        Status: Closed. The terms and conditions of the standard National
Institute of Standards and Technology Cooperative Research and Development
Agreements document were modified to include a clause on the export of
technical data. According to the National Institute of Standards and
Technology, all new Cooperative Research and Development Agreements
executed by the National Institute of Standards and Technology after
April 7, 2000, include the new clause. Existing Cooperative Research and
Development Agreements that are extended or amended for any reason will also
include the clause as part of the new amendment. In addition, the National
Institute of Standards and Technology is currently examining its other
agreements with the private sector to determine on a case-by-case basis whether
those agreements should also contain an export control clause. As a part of this
exercise, the Commerce OIG would encourage the National Institute of
Standards and Technology to examine its existing Cooperative Research and
Development Agreements that may not come up for an extension or amendment
to determine if they also need to be amended to include the export clause. The
National Institute of Standards and Technology actions meet the intent of the
Commerce OIG recommendation.

Recommendation for the National Institute of Standards and Technology,
the National Oceanic and Atmospheric Administration, and the Bureau of
Export Administration

Recommendation: Establish procedures to ensure that technical
information or know-how released to foreign nationals is in compliance with
Federal export licensing requirements. At a minimum:

(a) Develop guidance regarding when a visit, assignment, or collaborative
relationship of a foreign national to the National Institute of Standards and
Technology or the National Oceanic and Atmospheric Administration
facility requires a deemed export license.

(b) Clearly state policies, procedures, and responsibilities of the National
Institute of Standards and Technology and the National Oceanic and
Atmospheric Administration hosts for determining whether a deemed
export license is required.

(c) Establish a focal point at each appropriate Administration whether a
deemed National Institute of Standards and Technology and at the National
Oceanic and Atmospheric export license is required when a foreign national
visits the facility.

(d) Develop an export control program document containing procedures for
determining whether technology or commodities at the National Institute of
Standards and Technology and the National Oceanic and Atmospheric
Administration facilities can be exported to foreign countries, with or
without a license.


                                   52
        (e) Mandate training requirements for personnel at the National Institute of
        Standards and Technology and the National Oceanic and Atmospheric
        Administration facilities on the deemed export licensing requirements.

                National Institute of Standards and Technology. Status: Closed. In
        response to the Commerce OIG recommendations, the National Institute of
        Standards and Technology established an Export Control Working Group, which
        includes officials from the major National Institute of Standards and Technology
        management groups and divisions. The primary mission of the group is
        to (1) review its current export control policies and procedures and propose
        improvements where needed, (2) draft written policy guidelines on export
        controls for National Institute of Standards and Technology personnel,
        and (3) draft training materials on export controls for National Institute of
        Standards and Technology personnel. On March 24, 2000, the Working Group
        had a kick-off meeting, which included a presentation by Bureau of Export
        Administration officials. In May 2000, pending the adoption of formal written
        procedures, the offices of the National Institute of Standards and Technology
        Counsel and International and Academic Affairs instituted short-term procedures
        for processing foreign guest workers working at the National Institute of
        Standards and Technology. Workers coming from organizations on the Bureau
        of Export Administration Entity List or from embargoed countries, regardless of
        which project they will be participating in at the National Institute of Standards
        and Technology, were to be first vetted through the Office of the National
        Institute of Standards and Technology Counsel and formal applications for
        deemed export licenses. According to the National Institute of Standards and
        Technology, it has filed two deemed export license applications with the Bureau
        of Export Administration since March 2000. Both applications were returned
        without action because no license was required.

        Subsequently, a June 2000 memorandum from the Director of the National
        Institute of Standards and Technology Program Office was sent to all the
        division chiefs informing them of U.S. export control laws and regulations
        governing the sharing of information with foreign nationals. The memorandum
        also requested that each chief provide the name, country of origin, and detailed
        description of the research being conducted by each guest worker currently
        visiting the National Institute of Standards and Technology (as well as in the
        future) who comes from one of the countries listed on the restricted countries
        list contained in the International Traffic in Arms Regulations (ITAR).21
21
 The ITAR list includes the Bureau of Export Administration embargoed countries. When the
 Commerce OIG questioned the National Institute of Standards and Technology as to why it used the
 ITAR list as a baseline for its division chiefs to follow, the National Institute of Standards and
 Technology informed it that the original intent of the memorandum was for the National Institute of
 Standards and Technology to identify research being conducted by foreign guest workers from countries
 of concern, such as those from China, India, and Pakistan. However, the National Institute of
 Standards and Technology pointed out that it is aware of the Bureau of Export Administration Entity
 List and Denied Persons List as indicated by the fact that it applied for two deemed export license
 applications for individuals coming from an entity that appears on the Bureau of Export Administration
 Entity List. The National Institute of Standards and Technology stated that any future instruction on
 this issue will include references to not only the ITAR-restricted list, but also the Bureau of Export
 Administration Entity and Denied Persons Lists.


                                                  53
According to the memorandum, this information is to be forwarded to the Office
of International and Academic Affairs. Finally, the memorandum designates the
Office of the National Institute of Standards and Technology Counsel as the
focal point for export control guidance, including questions and clearances.

In August 2000, the Director of the National Institute of Standards and
Technology sent a memorandum to all National Institute of Standards and
Technology employees on the “Do’s and Don’ts When Dealing With Intellectual
Property, Proprietary Information and Companies.” The memorandum is
essentially a list of 10 principles to help National Institute of Standards and
Technology employees ensure that all their dealings with outside parties are
ethical and are in compliance with federal law, regulation, and policy. Item 6
on the list warns against the disclosure of technical information to non-
U.S. citizens and briefly explains the concept of deemed exports.

Finally, since issuance of the Commerce OIG March 2000 report, the National
Institute of Standards and Technology has held three training sessions, primarily
geared to National Institute of Standards and Technology personnel involved in
the Advanced Technology Program’s intramural activities that include a
discussion of export control-related issues, including deemed exports.
Furthermore, the National Institute of Standards and Technology is planning
another series of training courses involving general scientific collaborations
during the coming year that is also expected to incorporate a discussion of
export control-related issues. The National Institute of Standards and
Technology actions meet the intent of our recommendations.

National Oceanic and Atmospheric Administration. Status: Open. Since
our March 2001 follow-up report, the National Oceanic and Atmospheric
Administration’s the National Environmental Satellite, Data, and Information
Service formed an Export Action Team with representation from all of its major
divisions. According to a National Environmental Satellite, Data, and
Information Service official, this team serves as a formal structure to both
review incoming export actions, and make sure that line office activities are
staffed for export compliance. We were also told that key members of this
team, as well as a representative from the National Oceanic and Atmospheric
Administration’s Office of General Counsel, have taken several export training
classes. In addition, the National Environmental Satellite, Data, and
Information Service reportedly maintains close contact with the State
Department and the National Aeronautics and Space Administration regarding
munitions export requirements and export licenses for its satellite programs.

Furthermore, we were told that the National Environmental Satellite, Data, and
Information Service is developing an International Visitor Policy that will
provide comprehensive guidance to its staff on various requirements, including
export controls, security, and visa issues. In addition, the National
Environmental Satellite, Data, and Information Service informed us that it is
developing an export control awareness and training program that can be
presented to its staff on a regular basis and believes that the Bureau of Export
Administration’s help in this effort would be valuable.




                                   54
Finally, the National Environmental Satellite, Data, and Information Service
hopes that the recently formed Commerce Remote Sensing Working Group,
with representation from the International Trade Administration, the Technology
Administration, the Bureau of Export Administration, and the National Oceanic
and Atmospheric Administration, will afford it the opportunity to deal with
export control issues related to commercial remote sensing satellites.

We are pleased to report that the National Environmental Satellite, Data, and
Information Service actions to improve its compliance with export controls in
general, and deemed export controls in particular, are meeting the intent of our
recommendations. We believe that the National Oceanic and Atmospheric
Administration’s other line offices could benefit from similar actions.

While one National Oceanic and Atmospheric Administration official informed
us that its other line offices do not believe this issue is relevant to them, we
believe it is. Given the complexity of deemed export controls, we strongly urge
the National Oceanic and Atmospheric Administration to respond to the Bureau
of Export Administration’s May 31, 2001, offer to discuss this issue to
determine whether additional efforts need to be taken by the National Oceanic
and Atmospheric Administration’s other line offices to ensure that technical
information or know-how released to foreign nationals is in compliance with
Federal export licensing requirements. As a result, the National Oceanic and
Atmospheric Administration’s actions have not fully met the intent of our
recommendation.

Recommendation for the International Trade Administration and the
Bureau of Export Administration

Recommendation: Determine whether the International Trade
Administration or the Bureau of Export Administration is the appropriate
Commerce organization to take the lead on Committee on Foreign
Investment in the United States matters.

         Status: Closed. The Bureau of Export Administration and the
International Trade Administration agree that the Commerce responsibility for
coordinating Committee on Foreign Investment in the United States matters
should continue to reside in the International Trade Administration, because
neither party believes that a transfer of administrative responsibilities would
enhance the effectiveness of Commerce’s Committee on Foreign Investment in
the United States review process. However, neither agency could provide a
justification as to why the International Trade Administration is the more
appropriate Commerce organization to take the lead on the Committee on
Foreign Investment in the United States. Regardless, the two bureaus agreed to
work closely together, as well as with other interested departmental units, to
ensure that all Committee on Foreign Investment in the United States cases are
reviewed thoroughly. The Bureau of Export Administration and the
International Trade Administration actions meet the intent of our
recommendation.




                                   55
Department of Defense
    Status of the Inspector General, DoD, Report No. D-2001-088,
    “DoD Involvement in the Review and Revision of the Commerce
    Control List and the U.S. Munitions List,” March 23, 2001
    Recommendation for the Deputy Under Secretary of Defense (Technology
    Security Policy)

    Recommendation: Establish a process for working with Commerce to
    facilitate periodic interagency reviews of the Commerce Control List.

            Status: Open. The Deputy Under Secretary of Defense (Technology
    Security Policy) stated that Defense will work with Commerce to encourage
    them to adopt a regular schedule for reviewing relevant portions of the
    Commerce Control List and ensure that the list is up to date to reflect the most
    recent international security environment and technology.

    Recommendation. Work with Commerce to determine if any of the items
    currently controlled unilaterally by the United States should be removed
    from the Commerce Control List.

            Status: Open. The Deputy Under Secretary of Defense (Technology
    Security Policy) stated that while foreign policy is not a direct Defense
    responsibility, Defense does agree that regular interagency reviews of items on
    the Commerce Control List controlled unilaterally might benefit from Defense
    expertise. Defense will endeavor to offer its expertise to Commerce and State
    for reviews of the Commerce Control List.

    Recommendation. Work with Commerce to determine if any of the
    countries to which controls apply should be removed from the Commerce
    Country Chart.

            Status: Open. The Deputy Under Secretary of Defense (Technology
    Security Policy) concurred, stating that although complicated the Commerce
    Country Chart needs to be updated to reflect the most recent international
    security environment. Defense will support a review of the Commerce Country
    Chart in the Export Administration Regulation.

    Recommendation. Establish goals and procedures for the Military Critical
    Technologies Program to include scheduled meetings of all Technical
    Working Groups on a periodic basis and ensure that a Military Critical
    Technologies Program adequately supports the Technical Working Groups
    in their review of the Militarily Critical Technologies List at regular
    intervals.

           Status: Closed. The Deputy Under Secretary of Defense (Technology
    Security Policy) stated that Technical Working Groups can be a valuable
    technical resource to augment Defense capabilities. The Defense Threat



                                        56
Reduction Agency intends to continue to schedule meetings of Technical
Working Groups that will augment resources as necessary with appropriate
regularity to meet Defense export control requirements.

Recommendation for the Director, Defense Threat Reduction Agency

Recommendation. Ensure that adequate funding and resources are
available to support regular reviews of the list of Militarily Critical
Technologies.

       Status: Closed. The Deputy Under Secretary of Defense (Technology
Security Policy) concurred, stating that adequate funding and resources should
be available to support regular review of the list of Militarily Critical
Technologies. However, the Militarily Critical Technologies Program is not the
only resource that the Defense Threat Reduction Agency and Defense use
examining and modifying export control lists, and past resources have been
adequate to meet requirements.

Recommendation: Provide adequate resources to decrease processing times
for review of commodity jurisdiction requests.

        Status: Open. The Deputy Under Secretary of Defense (Technology
Security Policy) stated that the Defense Threat Reduction Agency and Defense
increased the Technology Security Directorate Licensing Division
by 12 employees. However, commodity jurisdiction request determinations are
often complicated and require more time than license applications reviews.
While Defense agreed that processing times for commodity jurisdiction requests
could be improved, processing time was not a metric for determining the
effectiveness of the commodity jurisdiction request process as with license
applications review.

Recommendation for the Deputy Under Secretary of Defense (Technology
Security Policy) and Director, Defense Threat Reduction Agency
Recommendation: (with the assistance of Commerce) Establish a process
whereby all commodity classification requests are reviewed by the Defense
Threat Reduction Agency in a disciplined and transparent procedure with
strict time frames.

       Status: Open. The Deputy Under secretary of Defense (Technology
Security Policy) concurred, stating that Defense is continuing to discuss the
important matter of handling commodity classification requests with Commerce
and other agencies, particularly in context of Senate consideration of a bill to
reauthorize the Export Administration Act.




                                   57
Status of the Inspector General, DoD, Report No. D-2000-110,
“Export Licensing at DoD Research Facilities,” March 24, 2000
Recommendations for the Under Secretary of Defense for Policy

Recommendation: Coordinate with Commerce and State to develop
guidance regarding when a visit or assignment of a foreign national to a
Defense facility requires a deemed export license.

        Status: Open. The Director, Defense Research and Engineering is
working with the Defense Threat Reduction Agency to coordinate with
Commerce and State to develop guidance regarding visits or assignments of
foreign nationals to a Defense research facility that requires a deemed export
license. Anticipated completion date is April 2002.

Recommendation: Revise DoD Directive 2040.2, “International Transfers
of Technology, Goods, Services, and Munitions,” to clearly state policies,
procedures, and responsibilities of DoD and Military Department hosts for
determining whether a deemed export license is required when a foreign
national visits a Defense facility.

       Status: Open. The Defense Technology Security Administration has
reported that the revision should be ready for DoD-wide coordination by
October 2002.

Recommendation: Revise DoD Directive 5230.20, “Visits, Assignments, and
Exchanges of Foreign Nationals,” to clearly state policies, procedures, and
responsibilities of DoD and Military Department hosts for determining
whether a deemed export license is required when a foreign national visits a
Defense facility.

       Status: Open. A report from the Office of the Under Secretary of
Defense (Policy) on the status of this corrective action is expected by
April 2002.

Recommendations for the Director for Defense Research and Engineering

Recommendation: Coordinate with Commerce and State to develop
guidance regarding when a visit or assignment of a foreign national to a
Defense facility requires a deemed export license.

        Status: Open. The Director, Defense Research and Engineering is
working with the Defense Threat Reduction Agency to coordinate with
Commerce and State to develop guidance regarding when a visit or assignment
of a foreign national to a Defense research facility requires a deemed export
license. Anticipated completion date is April 2002.

Recommendation: Establish a focal point at each Defense research facility
to determine whether a deemed export license is required when a foreign
national visits the facility.



                                    58
       Status: Open. When export control program guidance has been fully
developed, the Director, Defense Research and Engineering will develop a
memorandum directing that each Defense research facility appoint a focal point
for deemed export license determinations and direct the use of the guidance
document to be developed, as described below. Anticipated completion date
was originally reported as July 31, 2001. Completion has not been reported and
no new anticipated completion date has been supplied.

Recommendation: Develop an export control program document containing
procedures for determining if technology or commodities at Defense
research facilities can be exported, with or without a license, including
circumstances that may constitute exemptions from requirements of the
Export Administration Regulations or the International Traffic in Arms.

       Status: Open. The Director, Defense Research and Engineering is
working with Defense Threat Reduction Agency to develop an export control
program document that contains procedures for determining whether technology
or commodities at Defense research facilities can be exported to foreign
countries, with or without a license. Guidance developed jointly with
Commerce and State will be included. The document is to be coordinated with
the Office of the Under Secretary of Defense (Policy) and Service
representatives prior to submission for publication. Anticipated completion date
was originally reported as July 13, 2001. Completion has not been reported and
no new anticipated completion date has been supplied.

Recommendation: Mandate training requirements for personnel at Defense
research facilities on the deemed export licensing requirements of the
Export Administration Regulations and the International Traffic in Arms
Regulations.

        Status: Open. The Director, Defense Research and Engineering has
been working with the Office of the Assistant Secretary of Defense for
Command, Control, Communications, and Intelligence to develop a process that
improves counterintelligence support to DoD research facilities. The process
includes development of Counterintelligence Support Plans at each facility.
Each Counterintelligence Support Plans will include a requirement for threat
awareness training for all personnel at these facilities. The Director, Defense
Research and Engineering will work with the Office of the Assistant Secretary
of Defense for Command, Control, Communications, and Intelligence to ensure
that the training addressed in the Counterintelligence Support Plans includes
deemed export licensing requirements and that deemed export licensing is
addressed in implementing regulation for draft DoD Directive 5230.39,
“Research and Technology Protection Within the Defense Department.” No
estimated date of completion was provided.

Recommendation: The Deputy Under Secretary of Defense (International
and Commercial Programs) rescind the 1994 policy memorandum,
“Implementing Arrangements to Research and Development Umbrella
Agreements,” and revise DoD Instruction 2015.4, “Mutual Weapons




                                   59
    Development Data Exchange Program and Defense Development Exchange
    Program,” to delegate authority to the Military Departments for
    coordinating data exchange agreement annexes with Commerce.

            Status: Open. In November 2000, a Statement of Principles between
    Defense and Commerce was signed. The Statement concerns the consultation of
    acquisition, technology and logistics-related international agreements, including
    Data Exchange Annexes and Information Exchange Annexes, between both
    Defense and Commerce. A December 13, 2000, memorandum from the Office
    of the Under Secretary of Defense (Acquisition, Technology, and Logistics)
    requires the Military Departments to transmit draft Data Exchange Annexes or
    Information Exchange Annexes to Commerce for review prior to signature. The
    Director, International Cooperation from the Office of the Under Secretary of
    Defense (Acquisition, Technology, and Logistics) said that his office was
    planning to update the processes in DoD Directive 2015.4. No estimated date
    of completion was provided.

    Recommendation for the Services: Army, Navy, and Air Force

    Recommendation: Army, Navy, and Air Force update their guidance to
    delineate clear procedures for coordinating Data Exchange Annexes with
    Commerce.

           Status: Open. The three Services have agreed to update their
    respective guidance, upon the revision of DoD Directive 2015.4. Action is
    awaiting the above revision.


Department of Energy
    Status of the Energy OIG Report No. DOE/IG-0465, “Inspection
    of the Department of Energy’s Export License Process for
    Foreign National Visits and Assignments,” March 2000
    Corrective action for three of the eight recommendations in the March 2000
    report were completed and the recommendations were closed.
    Five recommendations are currently open pending issuance of an Energy order
    regarding foreign visits and assignments. When issued, the Energy OIG will
    assess the responsiveness of the Energy order to the recommendations and
    determine whether the remaining recommendations should be closed.

    Recommendation 1: Energy should ensure that senior Energy officials work
    with senior Commerce officials to assure clear, concise, and reliable
    guidance is obtained in a timely manner from Commerce regarding the
    circumstances under which a foreign national’s visit or assignment to an
    Energy site would require an export license.

            Status: Closed. Energy reported that on April 20, 2000, guidance on
    “Deemed Exports” was published and submitted to Energy elements and that
    this guidance was reviewed by the Field Management Council and approved by


                                       60
the Deputy Secretary. The guidance explains what a deemed export is, when a
deemed export requires an export license, and how a deemed export can occur.
The guidance also provides directions for technical reviews to take place by
facility individuals familiar with technology, equipment or material involved and
with applicable export control regulations. Based upon Energy’s actions, the
recommendation is closed.

Recommendation 2: Energy should ensure that a proposed revision of the
Energy Notice concerning unclassified foreign visits and assignments
includes the principal roles and responsibilities for hosts of foreign national
visitors and assignees.

        Status: Open. Energy reported that the recommendation is consistent
with the current and ongoing Energy initiative to update and clarify foreign visit
and assignment policy. Energy further reported that the new draft DoE
Order 142.X, “Unclassified Visits and Assignments by Foreign Nationals”
includes the principal roles and responsibilities for hosts of foreign national
visitors and assignees. Energy reported that the completion of this
recommendation is deferred because publication of the order was halted in
March 2001 as part of a 6-month hiatus from publishing security-related orders.
Energy reported that the halt and 6-month hiatus are in response to the National
Nuclear Security Administration and the Energy Office of Science review of the
outstanding security-related orders, policies, notices, procedures, and processes.
This recommendation remains open pending the issuance of the Energy Order.

Recommendation 3: Energy include a requirement for Energy and Energy
contractor officials to enter required foreign national visit and assignment
information in the Foreign Access Records Management System, or a
designated central data base, in a complete and timely manner.

        Status: Closed. Energy reported that a new Energy-wide information
system, the Foreign Access Centralized Tracking System, was developed and
implemented. Energy further advised that draft DoE Order 142.X includes a
requirement for Energy sites to enter required foreign national visit and
assignment information into the Foreign Access Centralized Tracking System in
a complete and timely manner. We determined that because this
recommendation duplicates recommendation eight, we consider recommendation
three closed.

Recommendation 4: The Manager of Energy’s Oak Ridge Operations
Office should ensure that requests for foreign national visits and
assignments at the Oak Ridge site are reviewed by the Y-12 National
Security Program Office to assist in identifying those foreign nationals who
may require an export license in conjunction with the visit or assignment.

        Status: Closed. Energy reported that to ensure requests for foreign
national visits and assignments at the Oak Ridge National Laboratory receive
appropriate export license consideration, Oak Ridge National Laboratory
initiated a system of reviews. Under the system, requests are reviewed by five
separate disciplines (Cyber Security, Export Control, Classification,
Counterintelligence, and Security). In addition, requests associated with


                                    61
concerns are referred for resolution to the Non-citizen Access Review
Committee. Energy further reported that while each of the reviews can involve
National Security Program Office, the Oak Ridge National Laboratory Export
Control Office is responsible for referring requests to National Security
Program Office as necessary. Based on the actions taken by the Oak Ridge
Manager, the recommendation was closed. However, we will track the issue
under recommendation eight.

Recommendation 5: The Department of Energy should ensure that the
requirements in the revised Energy Notice for unclassified foreign national
visits and assignments are clearly identified and assigned to responsible
officials or organizations.

        Status: Open. Energy reported that draft DoE Order 142.X includes
clear identification of requirements and assignments to responsible officials or
organizations. Energy reported that completion of this recommendation is
deferred because publication of the order was halted in March 2001 as part of a
6-month hiatus for publishing security-related orders. Energy reported that the
halt and 6-month hiatus are in response to the National Nuclear Security
Administration and the Energy Office of Science review of outstanding security-
related orders, policies, notices, procedures, and processes. This
recommendation remains open pending the issuance of the Energy Order.

Recommendation 6: Energy should ensure that guidance issued by the
Office of Nuclear Transfer and Supplier Policy to advise hosts of their
responsibilities regarding foreign nationals includes the appropriate level of
oversight to be provided by the host during the period of the visit or
assignment.

        Status: Open. Energy reported that draft DoE Order 142.X includes
the principal roles and responsibilities for hosts of foreign national visitors and
assignees. Energy reported that completion of this recommendation is deferred
because publication of the order was halted in March 2001 as part of a 6-month
hiatus for publishing security-related orders. The Department reported that the
halt and 6-month hiatus are in response to the National Nuclear Security
Administration and the Energy Office of Science review of outstanding security-
related orders, policies, notices, procedures, and processes. This
recommendation remains open pending the issuance of the Energy Order.

Recommendation 7: Energy should revise the Energy policy regarding
foreign national visits and assignments to ensure that Energy sites are
maintaining consistent information about foreign nationals visiting or
assigned to work at the site.

        Status: Open. Energy reported that draft DoE Order 142.X requires
development of consistent information and input into the Foreign Access
Centralized Tracking System. Actions are underway to implement standard
templates to upload historical information from Energy’s site legacy systems
into the Foreign Access Centralized Tracking System. Energy reported that
completion of this recommendation is deferred because publication of the order
was halted in March 2001 as part of a 6-month hiatus from publishing


                                    62
    security-related orders. Energy reported that the halt and 6-month hiatus are in
    response to the National Nuclear Security Administration and the Energy Office
    of Science review of outstanding security-related orders, policies, notices,
    procedures, and processes. The recommendation remains open pending the
    issuance of the Energy Order.

    Recommendation 8: Energy should require that all Energy sites with
    foreign national visitors or assignees enter information regarding the visits
    or assignments into Foreign Access Records Management System, or a
    designated central Energy database.

            Status: Open. Energy reported that the Foreign Access Centralized
    Tracking System was developed and implemented and that draft DoE
    Order 142.X includes the requirement for sites to enter required foreign national
    visit and assignment information into the Foreign Access Centralized Tracking
    System in a complete and timely manner. Energy reported that completion of
    this recommendation is deferred because publication of the order was halted in
    March 2001 as part of a 6-month hiatus from publishing security-related orders.
    Energy reported that the halt and 6-month hiatus are in response to the National
    Nuclear Security Administration and the Energy Office of Science review of
    outstanding security-related orders, policies, notices, procedures, and processes.
    The recommendation remains open pending the issuance of the Energy Order.


Department of State
    Status of State OIG Report No. 01-FP-M-027, “U.S. Munitions
    List and the Commodity Jurisdiction Process,” March 2001
    Recommendations for the Office of Defense Trade Controls (State)

    Recommendation: Develop procedures to regularly notify Commerce and
    Defense of deadlines for specific cases to conform with National Security
    Council time guidelines.

            Status: Open. The Office of Defense Trade Controls stated that it has
    made an effort to close cases that exceeded the guidelines, to keep new cases
    within the guidelines, and to ensure that both departments are notified of
    deadlines consistent with National Security Council guidelines. The
    recommendation remains open pending receipt of an office plan that
    incorporates National Security Council performance measures.

          Recommendation: Develop and implement a plan to improve its
    commodity jurisdiction procedures in order to meet National Security
    Council time guidelines.

           Status: Open. The Office of Defense Trade Controls stated that it has
    assigned a second, full-time licensing officer. The recommendation remains
    open pending receipt of documentation of the Office of Defense Trade Controls



                                        63
authorized position changes for the additional licensing officer and receipt of an
office plan that outlines improvements to its commodity jurisdiction procedures.

Recommendation: Inform the relevant agencies of all the commodity
jurisdiction requests that it receives and inform relevant agencies of the
decision on each jurisdiction request.

        Status: Open. The Office of Defense Trade Controls stated that it
informs Defense and Commerce of any commodity jurisdiction requests
received and decisions made. The recommendation remains open pending
receipt of documentation of the Office of Defense Trade Controls procedural
changes that have taken place.

Recommendation: Create a more efficient and transparent commodity
jurisdiction process by coordinating with Commerce and Defense to obtain
a secure automated system for processing, referring, and storing historical
data on commodity jurisdiction cases.

        Status: Open. The Office of Defense Trade Controls stated that an
electronic licensing proof of concept that would allow automated handling of
commodity jurisdiction cases is being developed. The recommendation remains
open pending receipt of a copy of the proof of concept, its scope, security
features, and connectivity with Commerce. The Bureau of Information
Resource Management must also approve the proof of concept before the
recommendation can be closed.

Recommendation: Coordinate with the Bureau of Information Resource
Management and establish an e-mail system.

        Status: Closed. The Office of Defense Trade Controls stated that
licensing personnel have e-mail connectivity with other State offices and
Defense on ClassNet and that they will be given priority for installation of Open
Net Plus when the system is certified. Based on that action, the
recommendation is closed.
Recommendation: Coordinate with Commerce and Defense in updating the
1992 memorandum of understanding on night vision commodities and
request that Defense add the U.S. Munitions List category for night vision
commodities to the Defense Trade Security Initiative Number 17 review
for 2002.

        Status: Closed. The Office of Defense Trade Controls stated that it
proposed to Defense that the relevant category should be included in the
U.S. Munitions List review. Defense agreed and the review is ongoing. The
corrective action is responsive to the OIG recommendation and it is closed.

Recommendation: Establish written policies and procedures for the
Government jurisdiction process in coordination with all Government
agencies involved in the commodity jurisdiction process.




                                    64
             Status: Open. The Office of Defense Trade Controls stated that it has
     taken steps to remind Defense and Commerce that the commodity jurisdictions
     are to be relied on in jurisdictional questions engaging U.S. exporters. The
     recommendation remains open pending receipt of a copy of the Office of
     Defense Trade Controls notification to Defense and Commerce.
Status of State OIG Report No. 00-CI-008, “Department of State
Controls Over the Transfer of Military Sensitive Technologies to
Foreign Nationals from Countries and Entities of Concern,”
March 2000
     Recommendations for the Office of Defense Trade Controls (State)

     Recommendation: The Office of Defense Trade Controls should improve its
     tracking capabilities for foreign nationals on export munitions licenses to
     prevent the transfer of sensitive data to countries of concern. The Office of
     Defense Trade Controls should use its existing database to track foreign
     nationals listed on export munitions licenses, including, at a minimum, the
     name and nationality of the individual.

             Status: Closed. The Office of Defense Trade Controls reported that it
     has established the computer coding capability to track foreign nationals from
     countries of concern whose U.S. Defense industry employment has been
     authorized by a munitions license.

     Recommendation: The Office of Defense Trade Controls should highlight
     in its outreach programs compliance with existing licensing requirements
     for the transfer of information to foreign nationals.

             Status: Closed. The Office of Defense Trade Controls reported that it
     has participated in seminars, workshops, and conferences where they presented
     information regarding the transfer of information to foreign nationals. Based on
     this action, the recommendation is closed.

     Recommendation: The Office of Defense Trade Controls should develop a
     plan of action, based on an analysis of the effectiveness of the first year
     program, for the number and scope of future reviews including additional
     personnel and resources.

             Status: Open. The Office of Defense Trade Controls reported that
     audits are conducted through on-site visits and by corporate and outside audit
     staff under the direction of the Office of Defense Trade Controls. The
     recommendation remains open pending receipt of an action plan.




                                        65
This page intentionally left blank




               66
Secretary of State Comments




                      67
Final Report
Reference




Revised
page 19 and
page 27




               68
69
Final Report
Reference




Revised
page 14




Revised
page 15 and
page 16




Revised
page 16




Page 16




               70
     Final Report
     Reference




     Revised
     page 17



     Revised
     page 17




     Page 18




     Page 18




71
72
Secretary of Defense Comments
                                Final Report
                                Reference




                                Revised
                                page 27




                                Revised
                                page 11 and 23




                      73
Final Report
Reference




         **




           ** Enclosures were not included in the report at the request of the U.S. Export Systems Interagency
           Program Management Office.



                                                             74
Secretary of Commerce Comments




                    75
Final Report
Reference




Revised
page 11




               76
77
Secretary of Energy Comments




                     78
